<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



[Note.--Before the Committee organized its subcommittees for the 109th 
  Congress, the following hearing was held under the Subcommittee on 
  Veterans Affairs and Housing and Urban Development and Independent 
                               Agencies.]


 
 DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND 
        INDEPENDENT AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                      THURSDAY, FEBRUARY 17, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:01 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Christopher S. Bond (chairman) 
presiding.
    Present: Senators Bond, Stevens, and Mikulski.

                   EXECUTIVE OFFICE OF THE PRESIDENT

                Office of Science and Technology Policy

STATEMENT OF DR. JOHN H. MARBURGER, III, DIRECTOR, AND 
            SCIENCE ADVISOR TO THE PRESIDENT


            OPENING STATEMENT OF SENATOR CHRISTOPHER S. BOND


    Senator Bond. Good morning. The Senate Appropriations 
Committee's Subcommittee on VA, HUD, and Independent Agencies' 
hearing on the 2006 budget request for NSF and OSTP will come 
to order.
    My apologies for the confusion today. We are starting early 
because, as most of you know, this is a day when Secretary Rice 
will be testifying on the urgent supplemental at 10 o'clock. My 
colleague, Senator Mikulski, is in traffic and will be here 
about 9:15. She has asked that I proceed, and I apologize 
because we were held up for a half an hour by a traffic 
accident, so that is why the scramble.
    This is a very important hearing that we wanted to begin. I 
welcome Dr. John Marburger from OSTP, Dr. Arden Bement from the 
National Science Foundation, and Dr. Warren Washington from the 
National Science Board.
    Congratulations, Dr. Bement, for being confirmed last year 
as NSF's Director. I look forward to working with all three of 
you and hearing your testimony today.
    Before I proceed with the business at hand, I recognize 
there are several questions surrounding the future structure of 
our committee. While this is an important issue and my staff 
and I have had to spend far too much time on it, I strongly 
believe that we cannot hold up work of the Senate and the 
taxpayers by waiting for this issue to be resolved. We intend 
to resolve it appropriately. We have to move forward. That is 
why we are here today.
    While our colleagues across the Capitol say they want to 
avoid another omnibus, the hasty and ill-advised action they 
took last week will do just the opposite, forcing an omnibus, 
unless we can arrive at an accommodation. That is very 
unfortunate. As this particular panel knows, when we go into an 
omnibus, funds are cut out of the basic research that we need 
so badly. That is what happened last year.
    I have been, as Senator Mikulski has been, and will 
continue to be a very strong supporter of NSF and a robust NSF 
budget. My support for the work at NSF has not and will not 
diminish.
    I think this is a very important hearing today because it 
gives us an opportunity to talk about the critical role NSF 
plays in the economic, scientific, and intellectual growth of 
this Nation. Our country's future depends upon our ability to 
lead the world in science and technology, especially in the 
global marketplace. NSF is a primary tool in meeting the global 
challenges of the 21st century, pushing the boundaries of 
scientific research and technology. NSF's work should give us a 
better insight into the world around us. This work will build 
our economy, provide jobs, speed innovation, and improve the 
quality of life for all our people.
    Unfortunately, the Federal Government has not adequately 
supported NSF in the physical sciences. I strongly believe that 
the funding disparity between life sciences and the physical 
sciences has grown too large. And I have had numerous 
physicians, medical researchers, scientists tell us that we are 
holding back work in developments in the life sciences because 
we are not funding the basic NSF sciences that support them. 
The funding imbalance directly jeopardizes our ability to lead 
the world in scientific innovation. As I said, the NIH work is 
jeopardized because by undermining the physical sciences, we 
are undermining the underpinning for medical technological 
advances.
    Inadequate funding for NSF also hurts our economy and the 
creation of jobs. In recent years, there has been an outcry 
about outsourcing jobs to other countries. The best remedy for 
this issue is not protectionism but investing in education and 
skills of our future work force. This means better science and 
math education and technological skills, such as computer 
literacy. This is a major part of NSF's mission.
    I met earlier this week with leaders of our Nation's major 
computer companies, and they were absolutely stunned by the 
lack of commitment and investment in this research. They point 
out that it takes 25 years for this basic research to translate 
into jobs and to practical applications, and by not funding it 
now, we are short-changing our Nation several years down the 
road.
    Sadly, the budget request for NSF does not provide it with 
adequate resources to meet its mission. While Dr. Marburger and 
our friends at OMB will state that the NSF budget is one of the 
few increases in the Federal budget, I am not happy. Dr. 
Marburger chided me for the slim funding for NSF last year, and 
Jack, do you remember what I said? I said I cannot do it if OMB 
undercuts us. And guess what? OMB has undercut us once again. 
It is especially disappointing because Senator Mikulski and I 
and my other colleagues have made great efforts to get on a 
path to double funding for NSF. We have fallen off that path 
drastically, but we are not going to give up.
    This should be one of the highest priorities not just for 
this subcommittee but for the full committee, for the Congress 
and for the Nation. It means a greater effort by the research 
and high-tech sector in advocating and selling the virtues of 
NSF to the general public. Please, ladies and gentlemen, come 
out of your laboratories, come out of your think tanks, and let 
people know how important this funding is.
    Now, I know there are significant shortfalls throughout the 
Federal budget, and our own committee, the VA-HUD subcommittee, 
such as it is or was or may be, has underfunding for VA medical 
care, community development block grants, and in EPA Clean 
Water. It is obviously going to be a major challenge to find 
the funds for NSF in 2006. But, Senator Mikulski and I are 
committed to NSF and we are going to work with the 
administration to increase the NSF budget as we move forward.
    Given this constrained funding environment, it is even more 
critical that the National Science Board develop a long-term 
vision for NSF. In other words, Dr. Washington, we need a 
strategy that outlines what our priorities are, how we can get 
the biggest bang for our bucks through programs and activities 
supported by NSF. This does not mean looking into NSF to alter 
its grant size and duration. This means articulating a vision 
for the future of science and technology, including what are 
the new, bold, cutting-edge areas of research. We need a plan, 
a business plan, if you would, on how NSF will lead the 
research community in meeting these new, bold challenges. The 
Board has a tremendous talent pool available and we need you 
and the Board to tell us what are the activities that we must 
pursue for the future.
    One of the specific areas that the Board should examine is 
the future of our Nation's math and science education. In its 
budget request, the administration has made some disturbing 
cuts to NSF's education portfolio, especially those programs 
serving K through 12 education. Every major assessment of math 
and science has shown how far our country's students have 
fallen behind the rest of the world in math and science 
proficiency. I understand that up to fourth grade, boys and 
girls are doing well, but by the time they get to the eighth 
grade, our students are out-performed by 8 countries in science 
and by 14 countries in math, including Latvia and Malaysia. 
Now, what are we thinking about? We have to address this 
problem before it is too late.
    Our scientific education and research system must also 
ensure that no one is left behind. I am pleased that the budget 
request emphasizes the importance of broadening the 
participation of programs to under-represented groups such as 
minorities, women, and people with disabilities. Nevertheless, 
while OMB did not continue its routine practice of the past in 
cutting these types of programs, flat funding is not an 
overwhelming response.
    Moreover, flat funding programs that support under-
represented groups is hurting our ability to address a growing 
national crisis where there is a shortage of new homegrown 
scientists and engineers. We are not attracting enough young 
students, especially minorities, into these disciplines.
    In the past, we used to bring in students from foreign 
countries. We would educate them here and they would stay here 
and provide great resources for our country, and their 
intellectual capability was one of the assets that we could 
rely on. Now many of these students are going home because they 
can do the work in their home countries. We cannot continue to 
rely on foreign students coming and staying in the United 
States to fill the gap by retiring engineers and the 
scientists. We need to develop our students to fulfill those 
roles.
    In addition, I have a strong interest in nanotechnology. 
The budget provides $344 million for this important program. 
There is a tremendous amount of excitement about nanotechnology 
because of its far-reaching benefits from computers to 
manufacturing processes, to agriculture, to medicine.
    And as everyone knows, I am also a very big supporter of 
plant biotechnology because it has generated exciting 
possibilities for improving human health and nutrition. 
Impressive research is being done with plant genomics that can 
eventually be a powerful tool for addressing hunger in 
developing countries like those in Africa and Southeast Asia. I 
am very pleased by the recent progress on sequencing the maize 
genome, led by researchers at the Danforth Plant Science Center 
and the collaboration between the University of Missouri-
Columbia and Nepal on oilseeds from soybeans. I thank our good 
friend, Dr. Mary Clutter, for her work on these efforts and 
look forward to hearing more about it from her.
    In addition to my concerns about funding, I have to address 
one particular area of concern. Specifically I remain concerned 
about the Foundation's continuing deficiencies in managing and 
overseeing its large research facility projects. I will not go 
into detail about the Inspector General's statement, which is 
made a matter for the record, but it indicates that NSF's 
progress in addressing large facility management problems has 
been slow. Dr. Bement, I understand you have taken these issues 
more seriously than your predecessor, but I need your firm 
commitment that you will immediately implement the IG and 
National Academy of Sciences' recommendations to correct these 
problems. I also believe the Board should oversee these more 
closely.
    Lastly, the Board and Foundation must finalize the 
priority-setting process guidelines for large research 
facilities. I do not want to hear any more excuses. This is not 
rocket science. It is just good management.
    I look forward to hearing the testimony of our witnesses 
today, and I will call on my colleague and partner, Senator 
Mikulski, when she arrives.


                           PREPARED STATEMENT


    Now, because of the tightened time schedule, I would ask--
Dr. Marburger gets 7\1/2\ minutes and Dr. Bement and Dr. 
Washington get 5. While you get ready, I will now turn it over 
to my colleague, Senator Mikulski. I have told them how the cow 
eats the cabbage, and you can continue from here.
    [The statement follows:]

           Prepared Statement of Senator Christopher S. Bond

    The subcommittee will come to order. This morning, the VA-HUD and 
Independent Agencies Subcommittee will conduct its first hearing of the 
year and we begin with the fiscal year 2006 budgets for the National 
Science Foundation, the National Science Board, and the Office of 
Science and Technology Policy. I welcome back Dr. John Marburger from 
OSTP, Dr. Arden Bement from NSF, and Dr. Warren Washington from the 
National Science Board to our subcommittee. I congratulate Dr. Bement 
for being confirmed last year as NSF's new Director. I look forward to 
working with all three of you and hearing your testimony today.
    Before I proceed with the business at hand, I recognize that there 
are a lot of questions surrounding the future structure of our 
committee. While this is an important issue, I strongly believe that we 
cannot hold up the work of the Senate and the taxpayers by waiting for 
this issue to be resolved. We must move forward. That is why we are 
here today. While our colleagues across the Capitol say they want to 
avoid another Omnibus, the hasty and ill-advised action they took this 
week will do just the opposite, forcing an Omnibus. That is 
unfortunate.
    As many of you know, I have been, and will continue to be a strong 
supporter of NSF and a robust budget for NSF as well. My support for 
the work done at NSF has not, and will not diminish.
    This is a very important hearing because it gives me the 
opportunity to talk about the critical role NSF plays in the economic, 
scientific and intellectual growth of this Nation. Our country's future 
resides in our ability to lead the world in science and technology, 
especially in the global marketplace. NSF is one of our primary tools 
in meeting the global challenges of the 21st Century by pushing the 
boundaries of scientific research and technology. NSF's work will give 
us a better insight into the world around us. This work will grow our 
economy and speed innovation, improving the quality of life for all 
people.
    Unfortunately, the Federal Government has not adequately supported 
NSF and the physical sciences. I strongly believe that the funding 
disparity between the life sciences and the physical sciences has grown 
too large. This funding imbalance is alarming because it directly 
jeopardizes our Nation's ability to lead the world in scientific 
innovation. Further, we are jeopardizing the work of the National 
Institutes of Health because we are undermining the physical sciences, 
which provide the underpinning for medical technological advances.
    Inadequate funding for NSF also hurts our economy and the creation 
of good jobs. In recent years, there has been an outcry of outsourcing 
jobs to other countries. The best remedy to this issue is not 
protectionism but investing in the education and skills of our future 
workforce. This means better math and science education and 
technological skills, such as computer literacy. This is also a major 
part of NSF's mission.
    Sadly, the budget request for NSF does not provide it with the 
adequate resources to meet its mission. While Dr. Marburger and our 
friends at OMB will state that NSF's budget is one of the few increases 
in the Federal budget, it does not give me any solace. This is 
especially disappointing given the efforts of myself, Senator Mikulski, 
and many of my other colleagues to double the funding of NSF. We have 
fallen off the path for doubling NSF's budget, but we must not give up. 
This must remain one of our highest priorities, not of the 
subcommittee, but also the Nation. This must mean a greater effort by 
the research and high-tech sector in advocating and ``selling'' the 
virtues of NSF to the general public.
    I recognize that there are significant funding shortfalls 
throughout the Federal budget, including some notable accounts within 
the VA-HUD jurisdiction such as VA medical care, HUD CDBG, and EPA 
Clean Water SRF. It is obviously going to be a major challenge to find 
additional funds for NSF for fiscal year 2006. Nevertheless, I am 
committed to NSF and I want to work with the administration to increase 
NSF's budget as we move forward.
    Given the constrained funding environment, it is even more critical 
that the National Science Board develop a long-term vision for NSF. In 
other words, we need a strategy that outlines how we can get the 
biggest bang for our buck through programs and activities supported by 
NSF. This does not mean how NSF will alter its grant size and duration. 
This means articulating a vision for the future of science and 
technology, including the next bold cutting-edge areas of research. We 
also need a plan on how NSF will lead the research community in meeting 
these new bold challenges. The Board is ideally suited for this 
responsibility and I believe strongly that it is a core activity of the 
Board's mission.
    One of the specific areas that the Board should examine is the 
future of our Nation's math and science education. In this budget 
request, the administration has frankly made some disturbing cuts to 
NSF's education portfolio, especially to those programs serving K-12 
education. Every major assessment of math and science has shown how far 
our country's students have fallen behind the rest of the world in math 
and science proficiency. In one recent study, our 8th grade students 
were outperformed by eight countries in science and by 14 countries in 
math including Latvia and Malaysia. That is simply unacceptable. We 
must obviously address this problem before it is too late.
    Our scientific education and research system must also ensure that 
no one is left behind. I am pleased that NSF's budget recognizes the 
importance of broadening the participation of its programs to under-
represented groups such as minorities, women, and people with 
disabilities. Nevertheless, while OMB did not continue its routine 
practice of the past in cutting these types of programs, flat-funding 
them in this budget request is still disappointing.
    Moreover, flat-funding programs that support under-represented 
groups is hurting our ability to address a growing national crisis 
where there is a shortage of new homegrown scientists and engineers. We 
are not attracting enough young students, especially minorities, into 
these disciplines. We cannot continue to rely on using foreign students 
to stay in the United States and fill the gap created by retiring 
engineers and scientists.
    In addition to the education programs, I have a strong interest in 
nanotechnology. The budget request provides NSF with $344 million for 
this important program. There is a tremendous amount of excitement 
about nanotechnology because of its far-reaching benefits from 
computers to manufacturing processes to agriculture to medicine.
    As everyone knows, I am a big supporter of plant biotechnology 
because it has generated exciting possibilities for improving human 
health and nutrition. The impressive research being done with plant 
genomics can eventually be a very powerful tool of addressing hunger in 
many developing countries such as those in Africa and Southeast Asia. I 
am pleased by the recent progress on sequencing the maize genome led by 
researchers at the Donald Danforth Plant Science Center and the 
collaboration between the University of Missouri-Columbia and Nepal on 
oilseeds from soybeans. I thank Dr. Clutter for her work on these 
efforts and look forward to hearing more about it from her.
    In addition to my concerns about funding, I address one particular 
area of concern. Specifically, I remain troubled by the Foundation's 
continuing deficiencies in managing and overseeing its large research 
facility projects. Without going into detail, the Inspector General's 
statement for the record indicates that NSF's progress in addressing 
its large facility management problems has been slow. I understand that 
you, Dr. Bement, have taken these issues more seriously than your 
predecessor but I need your firm commitment that you will immediately 
implement the IG and National Academy of Sciences' recommendations to 
correct these problems. I also believe that the Board should get more 
heavily involved in this matter. Lastly, the Board and the Foundation 
must finalize the priority-setting process guidelines for large 
research facilities. I do not want to hear any more excuses. This is 
not rocket science.
    I look forward to hearing the testimony of all the witnesses today 
and I now turn to my colleague and ranking member, Senator Mikulski, 
for her statement.

    Senator Mikulski. Good morning, everybody. Senator Bond, it 
is the vagaries of traffic coming in from Baltimore.
    Why do we not go to our witnesses and then when I go to my 
questions, I will give my opening statement. It gives me a 
chance to kind of regroup.

                STATEMENT OF DR. JOHN H. MARBURGER, III

    Senator Bond. Dr. Marburger.
    Dr. Marburger. Thank you, Chairman Bond and Ranking Member 
Mikulski, members of the subcommittee. I am happy to appear 
before you once again to discuss the President's R&D budget for 
the fiscal year 2006 and I would like to thank you, Mr. 
Chairman, for your strong words of support for basic research 
and for research at NSF. We agree completely about the 
importance of science done by this agency. It is central to the 
scientific enterprise and a major funder of research in 
universities.
    As you know, despite the exceptional pressures on this 
budget, it does propose an increase in Federal R&D funds. The 
budget does maintain a strong focus on winning the war against 
terrorism while moderating the growth in overall spending, and 
this focus is reflected in the proposed R&D investments. The 
administration has made difficult choices and maintains 
strength in priority areas such as nanotechnology, information 
technology, and so forth. Furthermore, while overall non-
security discretionary spending is reduced by 1 percent, non-
security R&D is not correspondingly diminished. The fiscal year 
2006 proposal preserves the substantial increases made with 
your support during the first term of this administration, and 
my written testimony summarizes the extraordinary growth of R&D 
funding during the past 4 years.

                             BUDGET REQUEST

    This budget requests $132.3 billion for Federal R&D, an 
increase of $733 million over the current year's 2005 R&D 
budget, which is a record. The budget allocates 13.6 percent of 
the total discretionary outlays to R&D which is the highest 
level in 37 years. Non-defense R&D accounts for 5.6 percent of 
the total discretionary outlays, an amount significantly 
greater than the 5 percent average over the last three decades.
    So in my oral testimony, I am going to focus first on the 
OSTP budget, which is appropriated by this subcommittee, and 
then mention just very brief highlights on agency budgets 
within the jurisdiction of this subcommittee. And then Dr. 
Bement and Dr. Washington have much more detail about the 
budget of the National Science Foundation.
    So first, OSTP. As you know, OSTP has primary 
responsibility in the White House for prioritizing and 
recommending Federal R&D, as well as for coordinating 
interagency research initiatives. The fiscal year 2006 request 
for my office is $5,564,000, which represents a net decrease of 
about 12 percent below the 2005 enacted level. The major 
contributing factor for this reduction is that more than 
$650,000 previously required to cover our costs of after-hour 
utilities and space rental is now requested by the Office of 
Administration within the Executive Office of the President's 
budget as part of its effort to administer centrally common 
enterprise services. So this explains a major shift in how the 
budget is put together.
    The 2006 estimate reflects our continuing commitment to 
operate more efficiently and cost effectively without 
compromising the essential elements of a high-caliber science 
and technology agency, which is to say high-quality personnel. 
We continue to reduce funding in many object classes, non-
personnel classes, such as equipment and transportation of 
things rather than people, to meet our operating priorities. 
And we will continue to provide high quality support to the 
President and information to Congress, as well as to fulfill 
significant national homeland security and emergency 
preparedness responsibilities.
    I will be glad to answer more questions about the OSTP 
budget, if there are any, but let me briefly summarize just in 
one bullet each, the budgets for the three agencies of this 
committee.
    First, as you noted, NSF's budget would increase by 2.4 
percent to $5.6 billion in fiscal year 2006. This is, as you 
noted, an extremely important centerpiece for the Nation's 
science budget.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    The request for NASA is $16.46 billion which is also a 2.4 
percent increase from 2005, which does reflect a strong 
commitment by the administration to the missions of this 
agency. This budget request also makes some hard decisions, Mr. 
Chairman, trading off some projects with high technical risks 
to maintain others with high scientific value.

                    ENVIRONMENTAL PROTECTION AGENCY

    In EPA, the science and technology request is $792 million, 
which is a 2 percent increase over the previous year enacted, 
even before removing $70 million in earmarks.
    We have a number of interagency initiatives which my office 
has responsibility for coordinating. With President Bush's 2006 
budget request of $2.2 billion for the Network and Information 
Technology R&D initiative, the investment in this area over 5 
years will total more than $10.4 billion.
    The National Nanotechnology initiative, which you expressed 
interest in and have supported strongly, President Bush's 2006 
budget provides over $1 billion for this multi-agency program, 
bringing the total investment under this program to $4.7 
billion.
    We continue to support climate change, approximately $1.9 
billion, and with this request the administration will have 
invested more than $9 billion over 5 five years to improve our 
understanding of the global climate system.
    The hydrogen fuel initiative has a budget request of $260 
million, which is an increase of 16 percent from 2005 enacted. 
This initiative remains on track to meet President Bush's 5-
year $1.2 billion commitment to hydrogen research and 
development announced in his State of the Union address in 
2003.
    And in homeland security, the Science and Technology 
Directorate funding is to increase from $1.1 billion to $1.4 
billion. The R&D there is focused on countering chemical, 
biological, radiological, nuclear, and other catastrophic 
threats.

                           PREPARED STATEMENT

    So, Mr. Chairman and members of the subcommittee, America's 
science and technology capabilities are the envy of the world. 
I believe the President's fiscal year 2006 budget proposal 
maintains and selectively strengthens these capabilities in 
areas that are important to the Nation's national, homeland, 
and economic security. And I would be pleased to answer 
questions about these or other aspects of the budget. Thank 
you.
    [The statement follows:]

            Prepared Statement of Dr. John H. Marburger, III

    Chairman Bond, Ranking Minority Member Mikulski, and members of the 
subcommittee, I am pleased to appear before you once again to discuss 
the President's research and development (R&D) budget. As I have said 
many times before, I greatly appreciate the effective working 
relationship between our office and your committee, which I believe has 
resulted in good outcomes for the Nation's science and technology 
enterprise.
    The budget this year is subject to considerable pressure, as you 
know, and the President is committed to cutting the budget deficit in 
half by 2009. These factors make this year's budget proposal the 
tightest in nearly two decades.
    Despite these pressures, Federal R&D funds will increase in the 
President's Fiscal Year 2006 Budget. The budget maintains a strong 
focus on winning the war against terrorism, while moderating the growth 
in overall spending, and this focus is reflected in the proposed R&D 
investments. The administration has also maintained high levels of 
support for priority areas such as nanotechnology, information 
technology, the hydrogen initiative, and space exploration. 
Furthermore, while overall ``non-security'' discretionary spending is 
reduced by 1 percent, ``non-security'' R&D is not correspondingly 
diminished. The fiscal year 2006 proposal preserves the substantial 
increases made--with your support--during the first term of this 
administration. This treatment of R&D is consistent with the 
President's commitment to science and technology and the vital role 
they play in meeting the Nation's goals for national and economic 
security and the quality of life.
    Comparing R&D investments in this administration with investments 
in other top national priorities demonstrates this commitment: from 
fiscal year 2001 to this fiscal year 2006 proposal, Federal spending on 
Department of Homeland Security (DHS) activities will have increased 83 
percent; Department of Education programs are up 40 percent; and 
Department of Defense spending is up 37 percent. At the same time total 
Federal investment in R&D will have increased 45 percent. The 
percentage increase in R&D has been second only to the increase in the 
Department of Homeland Security during President Bush's first 5 budget 
years.
    This historic increase in R&D has not been confined to a single 
agency or field of science. It does include a significant investment in 
defense R&D, whose value to the Nation's technical enterprise extends 
well beyond the defense establishment. Defense R&D funds significant 
university and private sector research, supports a large number of 
scientists, engineers and technical experts, and is instrumental in 
training and recruiting the next generation of technical talent for the 
Nation. Non-defense R&D, however, has also benefited from similar large 
increases during the past 5 years.
    I am emphasizing these historical data to provide a context for 
this year's request. Within a pattern of overall budget constraint, 
funds are provided that we believe are appropriate to maintain and 
refine the large program increases of previous years. Within the 
pattern of detailed agency budgets, priorities have been established 
and choices made that preserve the Nation's investment in the 
critically important assets of science and technology.

              THE PRESIDENT'S FISCAL YEAR 2006 R&D BUDGET

    The President's Fiscal Year 2006 Budget requests $132.3 billion in 
Federal Research and Development funds, an increase of $733 million 
over this year's (2005) record R&D budget. The Budget allocates 13.6 
percent of total discretionary outlays to R&D--the highest level in 37 
years. Non-defense R&D accounts for 5.6 percent of total discretionary 
outlays, an amount significantly greater than the 5.0 percent average 
over the past three decades.
    While non-defense discretionary program budget authority is reduced 
by 0.26 percent in this proposal, non-defense R&D funds are increased 
by 0.74 percent. The category of Basic Research is maintained near its 
historically high level at $26.6 billion in fiscal year 2006, slightly 
down from $26.9 billion in fiscal year 2005.
    The fiscal year 2006 request for the ``Federal Science and 
Technology'' (FS&T) budget, (a focus more on basic research, as 
recommended by the National Academy of Sciences to) is $61 billion, or 
a 1 percent reduction from the fiscal year 2005 enacted level. However, 
this reduction is entirely attributable to the removal of earmarks, 
most notably in the Department of Defense (over $1 billion) and the 
Department of Agriculture (approximately $340 million). The President's 
Fiscal Year 2006 Budget request does not continue fiscal year 2005 
earmarks beyond fiscal year 2005, instead increasing programs of 
priority to research agencies. Earmarks are not consistent with using 
funds most efficiently to target agency missions or to support the best 
research. The administration strongly supports awarding research funds 
based on merit review through a competitive process, and we are 
prepared to work with Congress to achieve consistency in Legislative 
and Executive priorities to fund the best scientific research possible.
    Not all programs can or should receive equal priority, and this 
budget reflects priority choices consistent with recommendations from 
numerous expert sources. In particular, this budget is informed by 
recommendations from the President's Council of Advisors on Science and 
Technology (PCAST), and reflects an extensive process of consultation 
among the Federal agencies, the Office of Management and Budget (OMB), 
and the Office of Science and Technology Policy (OSTP).
    As in previous years this R&D budget highlights collaborations 
among multiple Federal agencies working together on broad themes. I 
will describe some individual agency highlights, followed by the five 
multi-agency R&D priorities highlighted in the President's Fiscal Year 
2006 Budget: Networking and Information Technology R&D; National 
Nanotechnology Initiative; Climate Change R&D; Hydrogen Fuel 
Initiative; and Homeland Security R&D.

                        AGENCY BUDGET HIGHLIGHTS

Office of Science and Technology Policy (OSTP)
    The Office of Science and Technology Policy, which I lead, has 
primary responsibility in the White House for prioritizing and 
recommending Federal R&D, as well as for coordinating interagency 
research initiatives. The fiscal year 2006 request for OSTP is 
$5,564,000, which represents a net decrease of $764,000, or 12.1 
percent, below the fiscal year 2005 enacted level. The major 
contributing factor for this reduction is that $653,000, previously 
required to cover OSTP's cost of after-hour utilities and space rental, 
is now requested by the Office of Administration, within the Executive 
Office of the President, as part of its effort to centrally administer 
common enterprise services.
    The estimate for fiscal year 2006 reflects OSTP's continuing 
commitment to operate more efficiently and cost-effectively without 
compromising the essential element of a top-caliber science and 
technology agency--high quality personnel. OSTP continues to reduce 
funding in many object classes, such as equipment and transportation of 
things, to meet operating priorities. OSTP will continue to provide 
high quality support to the President and information to Congress, as 
well as to fulfill significant national and homeland security and 
emergency preparedness responsibilities.

National Science Foundation (NSF)
    Funds are requested to increase the budget for NSF by 2.4 percent 
to $5.6 billion in fiscal year 2006, 26 percent above 2001's $4.4 
billion level. Similar investments in the past have yielded important 
scientific discoveries, which boost economic growth and enhance 
Americans' quality of life.
    NSF leads two administration priority research areas that promise 
to strengthen the Nation's economy: the National Nanotechnology 
Initiative (NNI) and the Networking and Information Technology R&D 
program (NITRD). NSF-funded nanotechnology research, proposed at $344 
million in fiscal year 2006, a 1.6 percent increase over 2005 and 129 
percent since 2001, has advanced our understanding of materials at the 
molecular level and has provided insights into how innovative 
mechanisms and tools can be built atom by atom. This emerging field 
holds promise for a broad range of developing technologies, including 
higher-performance materials, more efficient manufacturing processes, 
higher-capacity computer storage, and microscopic biomedical 
instruments and mechanisms. NSF's investments in NITRD, funded at $803 
million in 2006, a 1 percent increase over 2005 and 26 percent since 
2001, support all major areas of basic information technology (IT) 
research. NSF also incorporates IT advances into its scientific and 
engineering applications, supports using computing and networking 
infrastructure for research, and contributes to IT-related education 
for scientists, engineers, and the IT workforce.
    Growing concerns about the vulnerability of computers, networks and 
information systems have prompted increased NSF investments in cyber 
security research, education and training. The Fiscal Year 2006 Budget 
provides $94 million for these activities.
    Every research discipline in the agency is increased between 1 to 
3.5 percent, allowing the grant funding rate to be restored to 21 
percent (from 20 percent in 2005). Funding is provided for the five 
Major Research Equipment (MRE) projects already approved (Atacama Large 
Millimeter Array, EarthScope, the IceCube Neutrino Observatory, the 
Rare Symmetry Violating Processes (RSVP) installation, the National 
Ecological Observatory Network (NEON), and the Scientific Ocean 
Drilling Vessel).
    In order to most effectively and efficiently support the Nation's 
polar research activities in Antarctica, funding for three polar 
icebreakers is being transferred from the U.S. Coast Guard to NSF ($48 
million). In the future, this will permit NSF to define the options for 
refurbishment or replacement of two of the ships, as well as 
operational options for the third (Arctic) icebreaker.
    The Fiscal Year 2006 Budget will continue NSF's efforts to prepare 
U.S. students for the science and engineering workforce, with funds for 
4,600 graduate research fellowships and traineeships. NSF provides 
annual stipends in these programs of $30,000, which is significantly 
higher than the average stipend of $18,000 in 2001.

National Aeronautics and Space Administration (NASA)
    During the year since the President outlined a bold vision for 
sustained and affordable human and robotic exploration of space, NASA 
has restructured its organization and reprioritized its programs. The 
current human spaceflight programs, Shuttle and International Space 
Station, are focusing research and technology development on enabling 
the vision, while requirements are being established for the next 
generation of space transportation. An exciting array of space science 
missions are being planned that will enhance our understanding of the 
solar system, including interactions between the Earth and the space 
environment, and building observatories that will peer further into the 
cosmos to understand the origin of the universe, its structure, 
evolution and destiny.
    The President's Fiscal Year 2006 Budget request for NASA is $16.456 
billion, a 2.4 percent increase from 2005, reflecting a strong 
commitment by the administration to pursue the exploration vision. The 
Fiscal Year 2006 Budget request also makes some hard decisions, 
canceling some projects with high technical risk and others whose cost 
estimates would have led to the certain cancellation and delay of 
several other important programs. The budget request maintains NASA's 
focus on exploration and science while strengthening the long-term 
foundation for continued success.
    The budget requests about $3.2 billion in fiscal year 2006 for new 
vehicles and technologies to enable sustained human and advanced 
robotic exploration far from Earth. NASA has identified the major 
requirements for a Crew Exploration Vehicle that will carry astronauts 
to the Moon. NASA plans to perform risk reduction tests in 2008 and 
stage its first crewed flight by 2014. NASA will also continue pursuing 
nuclear technologies for space applications, optical communications for 
high data rate connectivity to space probes, radiation shielding, and 
other advanced technologies to support the exploration vision. In 
addition, NASA is pursuing innovative means to engage private industry 
including offering space prizes to spur innovation.
    The budget requests approximately $5.5 billion in fiscal year 2006 
to continue advancing our scientific understanding of the Sun, Earth, 
and planets and to inform decisions regarding appropriate human 
exploration missions. NASA will also build on its legacy of 
revolutionizing astronomy by continuing current operations of space 
telescopes such as Hubble, Chandra, and Spitzer while planning for the 
next generation of spacecraft that will enhance our ability to find 
planets around other stars, peer deep into the history of the universe, 
and improve our understanding of its structure.
    The Fiscal Year 2006 Budget continues to fund critical investments 
in Earth science satellites, technologies, and research. NASA will 
continue to play a major part in the interagency Climate Change Science 
Research Program, and contribute to the international initiative on the 
Global Earth Observing System of Systems.
    The budget requests approximately $6.4 billion in fiscal year 2006 
for operating the Space Shuttle and continuing assembly and operations 
of the International Space Station. NASA is examining configurations 
that meet the needs of both the new space exploration vision and our 
international partners using as few Shuttle flights as possible to 
enable Shuttle retirement by 2010, following completion of its role in 
ISS assembly. In concert with the new vision, NASA will refocus U.S. 
Space Station research on activities that prepare human explorers to 
travel beyond low Earth orbit, such as developing countermeasures 
against space radiation and understanding long-term physiological 
effects of reduced gravity.
    As the United States implements the Vision for U.S. Space 
Exploration, the administration recognizes the value of effective 
cooperation with Russia to further our space exploration goals. At the 
same time, we have to appropriately reflect U.S. nonproliferation 
policy and objectives in our relationship with Russia. The 
administration is thus interested in seeking a balanced approach that 
continues to protect our nonproliferation goals while advancing 
potential U.S. cooperation with Russia on the Vision for U.S. Space 
Exploration. Such a balanced approach must include the Iran 
Nonproliferation Act of 2000 (INA), which currently complicates 
cooperation with Russia on the International Space Station (ISS), and 
will also have an adverse impact on cooperation with Russia on our 
future space exploration efforts related to human space flight. To that 
end, the administration looks forward to working with Congress to 
ensure that the Vision for U.S. Space Exploration is able to succeed 
while remaining fully consistent with broader U.S. national security 
and nonproliferation goals.

Environmental Protection Agency (EPA)
    The fiscal year 2006 request for science and technology funding at 
EPA is $792 million, a 2 percent increase over fiscal year 2005, even 
before removing $70 million in earmarks. This investment supports core 
Agency programs and strengthens the application of science to EPA 
regulatory actions and other programs.
    The administration is directing $20 million of S&T funding to a new 
pilot program within EPA that the program offices (e.g., Water, Office 
of Solid Waste and Emergency Response, Air) would then use to fund 
applied research in the Office of Research and Development (ORD). This 
is intended to improve the use of ORD (to avoid duplicative program 
efforts), coordination between the program offices and ORD, and 
responsiveness and accountability. This program contributes to the 
overall increase in S&T funding.
    Seventy-nine million dollars in new funding will support homeland 
security projects and research at EPA related to water security 
monitoring and surveillance, post-incident building and environmental 
decontamination, and Environmental Laboratory Preparedness and 
Response.
    The Fiscal Year 2006 Budget requests approximately $65 million for 
the Science to Achieve Results (STAR) program, which includes a 
decrease in exploratory research grants. Given the overall tightness of 
EPA's budget (-6 percent from 2005 enacted), and the need to fund core 
programmatic needs, STAR grants, which cannot focus on EPA program 
needs, were reduced.

Department of Veterans Affairs (VA)
    The Fiscal Year 2006 Budget requests that over three quarters of a 
billion dollars ($786 million) be directly appropriated to VA for 
medical and prosthetic R&D, an 11 percent increase since fiscal year 
2001. Another $866 million is anticipated to be provided from other 
government agencies and private entities to support VA-conducted 
research, bringing total VA R&D program resources to $1.7 billion, 3 
percent more than fiscal year 2005.
    The proposed VA R&D budget provides for a comprehensive intramural 
research program to acquire veteran-specific medical knowledge and 
create targeted innovations that address the special health care needs 
of the Nation's veterans. This includes biomedical disease research, 
disability rehabilitation R&D, development of best practices for more 
effective and efficient health care delivery, clinical pharmacological 
and surgical studies in veterans, and indirect costs. The research is 
focused on trauma-related illness, sensory loss, military occupational 
effects, environmental exposures, mental illness, substance abuse, 
chronic disease and aging.

                          PRIORITY INITIATIVES

    The 2006 budget highlights priority interagency initiatives 
described briefly below. These initiatives are coordinated through the 
National Science and Technology Council (NSTC) for which my office has 
responsibility for day-to-day operations. The Council prepares research 
and development strategies that cross agency boundaries to form a 
consolidated and coordinated investment package.
    Networking and Information Technology R&D.--With President Bush's 
Fiscal Year 2006 Budget request of $2.2 billion for the Networking and 
Information Technology R&D (NITRD) program, the investment in this area 
over 5 years will total more than $10.4 billion. Research in networking 
and information technologies underpins advances in virtually every 
other area of science and technology and provides new capacity for 
economic productivity. Through active coordination, NITRD agencies 
mutually leverage resources to make broader advances in networking and 
information technology than any single agency could attain.
  --NSF continues to provide the largest share of Federal NITRD 
        funding, reflecting the Foundation's broad mission as well as 
        its leadership role in coordinating NITRD activities. The 
        fiscal year 2006 request for NSF is $803 million, an $8 million 
        increase from the 2005 estimate.
  --High-end computing continues to be a major focus within the NITRD 
        program. In fiscal year 2004, the interagency High End 
        Computing Revitalization Task Force (HECRTF) produced the 
        Federal Plan for High-End Computing, which describes a roadmap 
        for progress in core technologies for high-end computing, 
        mechanisms for improving access to high-end computing 
        resources, and strategies for improving Federal procurement and 
        coordination of high-end systems. The Fiscal Year 2006 Budget 
        reflects the continuation of NITRD activities that are 
        consistent with recommendations described in the Federal Plan, 
        such as investments in new high-end systems by NASA and DOE's 
        Office of Science.
  --NASA continues to emphasize high-end computing within its NITRD 
        portfolio through the recently-completed acquisition of the 
        Project Columbia supercomputer, a portion of which NASA plans 
        to make available to other Federal users. Following completion 
        of the acquisition of Columbia, NASA's expenditure in high-end 
        computing is normalizing at a lower level.
  --The Department of Energy's (DOE's) Office of Science has also 
        committed to operate their new Leadership Class Computing 
        facility at the Oak Ridge National Laboratory as a national 
        user facility. DOE's fiscal year 2006 request of $25 million 
        for the Leadership facility brings that Federal investment to 
        $100 million.
    National Nanotechnology Initiative.--President Bush's Fiscal Year 
2006 Budget provides over $1 billion for the multi-agency National 
Nanotechnology Initiative (NNI), bringing the total NNI investment 
under this administration to $4.7 billion. This sustained investment 
will advance our understanding of the unique phenomena and processes 
that occur at the nanometer scale and expedite the responsible use of 
this knowledge to achieve advances in medicine, manufacturing, high-
performance materials, information technology, and energy and 
environmental technologies.
  --The largest investments continue to be made by NSF where the fiscal 
        year 2006 NSF request is $344 million, an increase of $6 
        million over the 2005 estimate.
  --DOE contribution to the initiative ramps up dramatically with 
        commencement of operations in four of its five new major 
        Nanoscale Science Research Centers located across the country. 
        The Centers will provide research equipment and infrastructure 
        that will be broadly available to researchers from across the 
        scientific research community. Construction completion keeps 
        total DOE NNI spending flat in fiscal year 2006, but a portion 
        of construction roll-off funds are made available for 
        operational support.
  --The fiscal year 2006 request of $147 million by the Department of 
        Health and Human Services (HHS) includes programs at the 
        National Institutes of Health (NIH) emphasizing nanotechnology-
        based biomedical advances occurring at the intersection of 
        biology and the physical sciences, such as the National Cancer 
        Institute's Alliance for Nanotechnology in Cancer, and at the 
        National Institute of Occupational Safety and Health (NIOSH) 
        that address implications and applications of nanotechnology 
        for health and safety in the workplace.
  --With the addition of NIOSH, 11 Federal agencies currently fund 
        nanotechnology research and development under the NNI, and 
        another 11 participate in coordination. Agencies that have 
        joined the NNI as participants over the past year include the 
        U.S. Patent and Trademark Office and the Consumer Product 
        Safety Commission, indicating the increasing importance of 
        commercialization activities.
    Climate Change Research and Development.--The Fiscal Year 2006 
Budget continues strong support for the Climate Change Science Program 
(CCSP) and the Climate Change Technology Program (CCTP).
  --The CCSP budget continues to support the goals outlined in the CCSP 
        Strategic Plan, which was released in July 2003. Beginning in 
        fiscal year 2006, CCSP will formally track the expected 
        actions, deliverables, and milestones for each of its programs 
        in order to assess overall performance.
  --The Fiscal Year 2006 Budget proposes approximately $1.9 billion to 
        fund CCSP, virtually the same as 2005 despite reductions in 
        NASA (-$102 million) due to re-prioritization of programs. With 
        this request, the administration will have invested more than 
        $9 billion over 5 years to improve our understanding of the 
        global climate system.
  --The Fiscal Year 2006 Budget provides approximately $2.9 billion for 
        the U.S. Climate Change Technology Program (CCTP), which 
        supports research, development, deployment, and voluntary 
        programs to reduce greenhouse gas emissions via renewable 
        energy, fossil energy and nuclear energy, efficiency 
        improvements, and carbon sequestration.
  --In 2005, the CCTP will publish a draft Strategic Plan and solicit 
        comments from the scientific community and the public. The CCTP 
        will also identify within its portfolio a subset of National 
        Climate Change Technology Initiative (NCCTI) priority 
        activities.
    Hydrogen Fuel Initiative.--The Hydrogen Fuel Initiative (HFI) seeks 
to develop new science and technology to support a major shift toward 
the use of hydrogen as an energy medium, particularly for 
transportation. The Fiscal Year 2006 Budget for HFI is $260 million, 
$35 million (16 percent) greater than the fiscal year 2005 level. The 
Initiative remains on track to meet President Bush's 5-year, $1.2 
billion commitment to hydrogen research and development announced in 
his 2003 State of the Union address. Some highlights include:
  --$20 million, an $11 million (122 percent) increase over fiscal year 
        2005, will fund the Nuclear Hydrogen Initiative. This 
        initiative will conduct the R&D on enabling technologies, 
        demonstrate nuclear-based hydrogen production technologies, and 
        study potential hydrogen production schemes to support the 
        President's vision for a future Hydrogen economy.
  --$33 million for fundamental research within DOE's Office of 
        Science. This research seeks to overcome key technical hurdles 
        in hydrogen production, storage, and conversion, by seeking 
        revolutionary breakthroughs in areas such as non-precious-metal 
        catalysts, high-temperature membrane materials, multifunctional 
        nanoscale structures, biological and photoelectrochemical 
        hydrogen production, and precision manufacturing processes.
  --Congressional earmarking is slowing progress on HFI, however, and 
        may jeopardize the ability of the administration to achieve its 
        goal of a 2015 decision by industry to commercialize fuel cell 
        vehicles and infrastructure. In 2005, DOE's Hydrogen Technology 
        Program, a key component of HFI, received 17 earmarks totaling 
        $37 million, about 40 percent of the program's funding.
    Homeland Security.--Technology continues to help secure our Nation 
against terrorism. Research and development over the past 3 years in 
detectors against weapons of mass destruction (WMD) threat agents, 
medical countermeasures to improve public health preparedness and to 
protect our Nation's food and livestock, and advances in protecting the 
First Responders are moving from laboratory to operational use. The 
President's Fiscal Year 2006 Budget continues an aggressive investment 
in research, development, and the research infrastructure so as to 
further enhance our Nation's security. Priority research areas include:
  --$227 million to fund the creation of a Domestic Nuclear Defense 
        Office (DNDO) in DHS, whose responsibility will be to develop a 
        comprehensive system to detect and mitigate any attempt to 
        import or transport a nuclear explosive device, fissile 
        material or radiological material intended for illicit use 
        within the United States.
  --$1.8 billion to the HHS to fund research and development of 
        countermeasures against biological, chemical and radiological 
        threat agents.
  --$596 million is allocated for the U.S. Department of Agriculture, 
        HHS and DHS to improve food and agriculture defense. This 
        includes funding for research on exotic and emerging diseases 
        of plants and animals and to prevent and detect food 
        contamination, expanding and improving laboratory facilities, 
        and enhancing disease monitoring, surveillance and vaccine 
        storage.
  --$94 million will fund new and ongoing research at EPA related to 
        their role in water security and post-incident decontamination. 
        Systems for monitoring and surveillance of terrorist threat 
        agents in drinking water will be piloted in several U.S. 
        cities. Decontamination capabilities will be strengthened by 
        testing new cleaning methods, systems and antimicrobial 
        products for buildings and outdoor areas and by conducting risk 
        assessment work to support decontamination/revision of cleanup 
        guidance goals.

                  MANAGING THE FEDERAL RESEARCH BUDGET

    Consistent with the President's Management Agenda, the 
administration is improving the effectiveness of the Federal 
Government's investments in R&D by applying transparent investment 
criteria in analyses that inform recommendations for program funding 
and management. R&D performance assessment must be done carefully to 
avoid negatively impacting scientific productivity. Research often 
leads scientists and engineers down unpredictable pathways with 
unpredictable results. This characteristic of research requires special 
consideration when measuring an R&D program's performance against its 
initial goals.
    Elements of good R&D program management include establishing 
priorities with expected results, specifying criteria that programs or 
projects must meet to be started or continued, setting clear milestones 
for gauging progress, and identifying metrics for assessing results.
    The R&D Investment Criteria accommodate the very wide range of R&D 
activities, from basic research to development and demonstration 
programs, by addressing three fundamental aspects of R&D:
  --Relevance.--Programs must be able to articulate why they are 
        important, relevant, and appropriate for Federal investment;
  --Quality.--Programs must justify how funds will be allocated to 
        ensure quality; and
  --Performance.--Programs must be able to monitor and document how 
        well the investments are performing.
    R&D projects and programs relevant to industry are expected to meet 
criteria to determine the appropriateness of the public investment, 
enable comparisons of proposed and demonstrated benefits, and provide 
meaningful decision points for completing or transitioning the activity 
to the private sector.
    OSTP and OMB are continuing to assess the strengths and weaknesses 
of R&D programs across the Federal Government in order to identify and 
apply good R&D management practices throughout the government.

                               CONCLUSION

    Making choices is difficult even when budgets are generous. But 
tight budgets have the virtue of focusing on priorities and 
strengthening program management. This year's R&D budget proposal 
maintains levels of funding that allow America to maintain its 
leadership position in science and move ahead in selected priority 
areas. It is responsible in its treatment of security-related science 
and technology, and it rewards good planning and management.
    America currently spends one and a half times as much on Federally 
funded research and development as Europe does, and three times as much 
as Japan, the next highest investor in R&D. Our scientists collectively 
have the best laboratories in the world, the most extensive 
infrastructure supporting research, the greatest opportunities to 
pursue novel lines of investigation, and the most freedom to turn their 
discoveries into profitable ventures if they are inclined to do so.
    We lead not only in science, but also in translating science to 
economically significant products that enhance the quality of life for 
all people.
    This budget will sustain this leadership and maintain science and 
technology capabilities that are the envy of the world. I would be 
pleased to respond to questions.

    Senator Bond. Thank you very much, Dr. Marburger. Let me 
point out, in the interest of full disclosure, the 2.4 percent 
increase actually--part of it, $48 million, is attributed to 
transferring from the National Science Foundation funds to fund 
the icebreaking costs for operations in Antarctica. This has 
been in the budget, so the true increase for NSF is $84 
million, or only a 1.5 percent increase, and it is still 
significantly below the high-water mark for this budget in 
2004. It is $47 million short of where we were 2 years ago. 
Thank you very much, Dr. Marburger.
    Dr. Bement.

                      NATIONAL SCIENCE FOUNDATION

STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR
    Dr. Bement. Thank you, Chairman Bond, Ranking Member 
Mikulski. It is a pleasure to appear before you today to 
discuss NSF's fiscal year 2006 budget request and to express my 
personal appreciation for the strong support you and your 
colleagues have shown for NSF over the years.

                             BUDGET REQUEST

    NSF's fiscal year 2006 budget request reflects the 
administration's support for our mission. In light of the tight 
fiscal climate, we have fared relatively well. For the coming 
fiscal year, NSF requests $5.6 billion, an increase of $132 
million, or 2.4 percent over last year's appropriation levels.
    The total funding for NSF research and related activities 
account in this request increases by $113 million, nearly 3 
percent, to $4.33 billion. As you pointed out, of this amount, 
$48 million is transferred to NSF from the Coast Guard for 
operation and maintenance expenses related to icebreaking in 
the Antarctic. We are working with the Coast Guard to explore 
options for funding icebreaker services in support of science 
within available NSF resources.
    Maintaining strong and robust research programs in support 
of individual investigators and small groups of researchers is 
at the core of NSF's mission. In many scientific disciplines, 
NSF is a major source for Federal funding to academic 
institutions. One goal in this year's request is to strengthen 
our research support across all areas in our portfolio.
    Research, however, is only part of the NSF equation. Our 
mission includes education as well. In our request, we will 
maintain a total investment of almost $400 million for programs 
with a proven track record in broadening the participation of 
under-represented groups in the science and engineering arena. 
The Louis Stokes Alliances for Minority Participation, the 
Centers for Research Excellence in Science and Technology, and 
the Robert Noyce Scholarship Program, the STEM Talent Extension 
Program, and EPSCoR, just to name a few, are protected from 
reductions in this request.
    Overall, the Education and Human Resources Directorate at 
NSF will be funded at $737 million, down 12.4 percent from last 
year. Although we have found it necessary to make cuts in these 
programs, we are also finding ways to leverage other resources 
in support of education. We will, for example, continue to 
encourage the types of partnerships between researchers and 
students in our R&RA portfolio that provides hands-on learning 
experiences.
    We are committed to ensuring that future generations gain 
the skills, knowledge, and insight that comes from working at 
the frontier of discovery. We will also maintain our strong 
working relationship with the Department of Education to 
implement best practices in their initiatives supporting math 
and science education.

         RESEARCH EQUIPMENT AND FACILITIES CONSTRUCTION ACCOUNT

    While there are no new starts in our major research 
equipment and facilities construction account, NSF is 
increasing funding in this account by $76 million, for a total 
of $250 million, to continue to fund ongoing projects.
    NSF directly supports roughly 200,000 scientists, 
educators, and students and processes over 40,000 proposals a 
year. Balancing the needs of a growing, increasingly complex 
portfolio with new requirements for security, e-business 
practices, accountability, and award oversight presents an 
ongoing challenge. In order to meet these management goals, NSF 
will increase funding for activities that advance 
organizational excellence by $46 million to a total of $336 
million. This increase will allow for the recruitment of 23 
additional full-time employees, enhancement of and security of 
our e-government systems and continuing the implementation of 
the business analysis recommendations that we have been working 
on during the past 3 years.

                          PREPARED STATEMENTS

    Mr. Chairman, I have only touched upon the variety and 
richness of the NSF portfolio. NSF research and education 
efforts contribute greatly to the Nation's innovation-driven 
economy and help keep America at the forefront of science and 
engineering. NSF-supported researchers produce leading-edge 
discoveries that serve society and spark the public's curiosity 
and interest. Extraordinary discoveries coming from dozens of 
NSF programs are enriching the entire science and engineering 
enterprise and making education fun, exciting, and achievement-
oriented.
    Thank you and I will be glad to answer any of your 
questions.
    Senator Bond. Thank you, Dr. Bement.
    [The statements follow:]

               Prepared Statement of Arden L. Bement, Jr.

    Chairman Bond, Ranking Member Mikulski, and members of the 
committee, thank you for this opportunity to discuss NSF's Fiscal Year 
2006 Budget Request. It is a pleasure to appear before you today. For 
over 50 years, NSF has been charged with being a strong steward of the 
scientific discovery and innovation that has been crucial to increasing 
America's economic strength, global competitiveness, national security, 
and overall quality of life.
    For many years, the United States economy has depended heavily on 
investments in research and development--and with good reason. 
America's sustained economic prosperity is based on technological 
innovation made possible, in large part, by fundamental science and 
engineering research. Innovation and technology are the engines of the 
American economy, and advances in science and engineering provide the 
fuel.
    Investments in science and technology--both public and private--
have driven economic growth and improved the quality of life in America 
for the last 200 years. They have generated new knowledge and new 
industries, created new jobs, ensured economic and national security, 
reduced pollution and increased energy efficiency, provided better and 
safer transportation, improved medical care, and increased living 
standards for the American people. Innovation and technology have 
become the engines of the American economy, and advances in science and 
engineering provide the fuel.
    Investments in research and development are among the highest-
payback investments a Nation can make. Over the past 50 years 
technological innovation has been responsible for as much as half of 
the Nation's growth in productivity.
    Sustaining this innovation requires an understanding of the factors 
that contribute to it. The Council on Competitiveness, a consortium of 
industry, university, and labor leaders, has developed quantitative 
measures of national competitiveness: the number of R&D personnel in 
the available workforce; total R&D investment; the percentage of R&D 
funded by private industry; the percentage of R&D performed by the 
university sector; spending on higher education; the strength of 
intellectual property protection, openness to international 
competition; and per capita gross domestic product. A similar set of 
indicators has been developed by the World Bank Group, and voluminous 
data have been compiled by NSF. The important point underscored by 
these indicators is that, for America to remain a prosperous and secure 
country, it must maintain its technological leadership in the world.
    Perhaps the Council on Competitiveness' 2004 National Innovation 
Initiative report captured it best by simply stating, ``Innovation has 
always been the way people solved the great challenges facing 
society.''
    Often times, the connection between an area of research, or even a 
particular scientific discovery, and an innovation may be far from 
obvious. Fundamental research in physics, mathematics and high-flux 
magnets supported by NSF led to the development of today's Magnetic 
Resonance Imaging (MRI) technology. Today, MRIs are used widely to 
detect cancer and internal tissue damage. Fundamental research on 
extremophiles, or microorganisms living in extreme environments, led to 
the polymerase chain reaction, a procedure paramount to modern 
biotechnology, as well as one that allows us to use DNA for forensic 
evidence. Continuing progress in basic science and engineering research 
promises more discoveries as well as further improvements in living 
standards and economic performance.
    And still, science and engineering is becoming an ever-larger 
portion of our Nation's productivity. In the early 1950's, Jacob 
Bronowski wrote, ``The world today is powered by science.'' I would 
take this premise one step farther, ``No science; no economic growth.'' 
Our current level of scientific and technological productivity is what 
keeps us ahead of our global competitors as the playing field continues 
to become more level.
    NSF has helped advance America's basic science and engineering 
enterprise for over 50 years. Despite its small size, NSF has an 
extraordinary impact on scientific and engineering knowledge and 
capacity. While NSF represents only 4 percent of the total Federal 
budget for research and development, it accounts for 50 percent of non-
life science basic research at academic institutions. In fact, NSF is 
the only Federal agency that supports all fields of science and 
engineering research and the educational programs that sustain them 
across generations. NSF's programs reach over 2,000 institutions across 
the Nation, and they involve roughly 200,000 researchers, teachers, and 
students.
    NSF specifically targets its investments in fundamental research at 
the frontiers of science and engineering. Here, advances push the 
boundaries of innovation, progress and productivity.
    Compared to other commodities, knowledge generated from basic 
science investments is unique, long lasting and leverages on itself. 
Knowledge can be shared, stored and distributed easily, and it does not 
diminish by use. Incremental advances in knowledge are synergistic over 
time. NSF is proud to have built the foundation for this knowledge base 
through decades of peer-reviewed, merit-based research.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The Foundation's Fiscal Year 2006 Budget Request reflects the 
administration's confidence in our continuing with this mission. In 
light of the tight fiscal climate, NSF fared relatively well. For the 
coming fiscal year, NSF requests $5.6 billion, an increase of $132 
million, or 2.4 percent, over last year's appropriated levels.
    At a time when many agencies are looking at budget cuts, an 
increase in our budget underscores the administration's support of 
NSF's science and engineering programs, and reflects the agency's 
excellent management and program results.
    With the wealth of benefits that investments in science and 
engineering bring to the Nation, perhaps none is more powerful than the 
capability to respond quickly and effectively to challenges of all 
kinds. NSF's programs reach over 2,000 institutions across the Nation, 
and they involve researchers, teachers, and students in all fields of 
science and engineering and at all levels of education. They also keep 
us abreast of scientific advances throughout the world. This breadth of 
activity in and of itself creates a vital national resource, as it 
provides the Nation with a constantly invigorated base of knowledge, 
talent, and technology. For example, in areas ranging from terrorism 
threats to natural disasters, NSF's ongoing support of research in 
areas such as advanced information technologies, sensors, and 
earthquake engineering ensures a broad base of expertise and equipment 
that allows the science and engineering community to respond quickly in 
times of need and in partnership with scientists and engineers from 
other countries.
    Four funding priorities centering this year's request are designed 
to address current national challenges and strengthen NSF's core 
research investments. They include: (1) Strengthening core disciplinary 
research; (2) Providing broadly accessible cyberinfrastructure and 
world-class research facilities; (3) Broadening participation in the 
science and engineering workforce; and (4) Sustaining organizational 
excellence in NSF management practices.
    This year's investments will strengthen the core disciplines that 
empower every step of the process from discovery at the frontier to the 
development of products, processes, and technologies that fuel the 
economy. At the same time, NSF's investments will enable increasing 
connections and cross-fertilization among disciplines.
    NSF's focus on a clear set of priorities will help the Nation meet 
new challenges and take advantage of promising opportunities, while at 
the same time spurring the growth and prosperity needed to secure the 
Nation's long-term fiscal balance. The fiscal year 2006 budget will 
emphasize investments that address established interagency research 
priorities, meet critical needs identified by the science and 
engineering community, and advance the fundamental knowledge that 
strengthens the Nation's base of innovation and progress. NSF will 
respond to these challenges by supporting the best people, ideas, and 
tools in the science and engineering enterprise, and by employing the 
best practices in organizational excellence.

                RESEARCH AND RELATED ACTIVITIES ACCOUNT

    For fiscal year 2006, total funding for NSF's Research and Related 
Activities account increases by $113 million--nearly 3 percent--to 
$4.33 billion. This increase largely reflects NSF efforts to strengthen 
fundamental research in the core scientific disciplines as well as 
promote emerging areas of research. The fiscal year 2006 portfolio 
balances research in established disciplines with research in emerging 
areas of opportunity and cross-disciplinary projects. The most fertile 
opportunities sometimes lie in novel approaches or a collaborative mix 
of disciplines.
    Maintaining a strong and robust core is critical during such a 
budget climate as certain segments of the academic community rely 
heavily on NSF funding. In many scientific disciplines, NSF is a major 
source of Federal funding to academic institutions, including 
mathematics (77 percent), computer sciences (86 percent), the social 
sciences (49 percent), the environmental sciences (50 percent), 
engineering (45 percent) and the physical sciences (39 percent).
    Research, however, is only part of the NSF equation. Training the 
Nation's next generation of scientists and engineers is another key 
component of NSF's mission, and critical for maintaining economic 
prosperity and global competitiveness. Here, we are finding ways to 
leverage our resources. For example, as we strengthen our core 
disciplinary research programs, we will continue to encourage the types 
of partnerships between researchers and students that provide hands-on 
experience while ensuring that future generations gain the skills, 
knowledge and insight that come from working at the frontier of 
discovery.

   PROVIDING BROADLY ACCESSIBLE CYBERINFRASTRUCTURE AND WORLD-CLASS 
                          RESEARCH FACILITIES

    Twenty-first century researchers and the students who will bring 
new skills into the workforce rely on cutting edge tools. In fiscal 
year 2006, NSF is placing a high priority on investments in 
cyberinfrastructure and in unique, widely shared research equipment and 
facilities.
    An infrastructure of power grids, telephone systems, roads, bridges 
and rail lines buttressed this Nation's industrial economy and allowed 
it to prosper. However, cyberinfrastructure--a networked system of 
distributed computer information and communication technology--is the 
lynchpin of today's knowledge based economy. In fiscal year 2006, NSF 
cyberinfrastructure investments total $509 million, an increase of $36 
million (7.6 percent) over the fiscal year 2005 level.
    Modeling, simulation, visualization, data storage and communication 
are rapidly transforming all areas of research and education. NSF 
investments in cyberinfrastructure support a wide mix of projects and 
encourage participation from broad segments of the research community 
that rely on such technology as they tackle increasingly complex 
scientific questions. Thanks to cyberinfrastructure and information 
systems, today's scientific tool kit includes distributed systems of 
hardware, software, databases and expertise that can be accessed in 
person or remotely. In fact, programs such as Teragrid, a multi-year 
effort to create the world's largest distributed infrastructure for 
open scientific research, are specifically designed to transcend 
geographic boundaries and accelerate virtual collaborations.
    NSF is also increasing funding for the Major Research Equipment and 
Facilities Construction by $76 million or 44 percent, in fiscal year 
2006 for a total of $250 million. There are no new starts, but we will 
continue to fund ongoing projects. Work will proceed on five major 
facilities that will serve a spectrum of the science and engineering 
community. These include world-class astronomy, physics, and 
geosciences observatories identified as the highest priorities for 
advancing science and engineering.
  --The Atacama Large Millimeter Array (ALMA), in Chile, is a model of 
        international collaboration. It will be the world's largest, 
        most sensitive radio telescope.
  --The EarthScope facility is a multi-purpose array of instruments and 
        observatories that will greatly expand the observational 
        capabilities of the Earth Sciences and permit us to advance our 
        understanding of the structure, evolution and dynamics of the 
        North American continent.
  --Ice Cube, the world's first high-energy neutrino observatory will 
        be located under the ice at the South Pole.
  --RSVP, the Rare Symmetry Violating Processes Project will enable 
        cutting edge physics experiments to study fundamental 
        properties of nature. Studies will probe questions ranging from 
        the origins of our physical world to the nature of dark matter.
  --SODV, the Scientific Ocean Drilling Vessel, is a state-of-the-art 
        ship that will be a cornerstone of a new international 
        scientific ocean drilling program. Ocean core sediment and rock 
        collected by the vessel will help investigators explore the 
        planet's geological history and probe changes in the earth's 
        oceans and climate.
    Additionally, In fiscal year 2006, NSF will assume the 
responsibility, from the U.S. Coast Guard, for funding the costs of 
icebreakers that support scientific research in polar regions; $48 
million was transferred for those purposes.

                        BROADENING PARTICIPATION

    To feed our knowledge-based economy, the Nation needs to capitalize 
on all of its available talent to produce a workforce of skilled 
technologists, scientists and engineers. That means developing the 
largely untapped potential of those underrepresented in the science and 
engineering workforce--minorities, women and persons with disabilities. 
It also means supporting science education and training in all regions 
of the country--not just at large universities or in a handful of 
States.
    To achieve these goals, the Fiscal Year 2006 Request maintains a 
total investment of almost $400 million. Funding will be targeted to 
programs with a proven track record of progress in these areas. 
Included in this is $8 million in additional support from the research 
directorates that will supplement the Education and Human Resources 
Account to help achieve our goal of broadening science and engineering 
participation. Working closely with the directorates offers a dual 
benefit of providing educational opportunities and hands-on research 
experience to prepare students for the 21st century workforce.
    NSF will invest $396.5 million in a range of programs with proven 
track records. Several highly successful programs for broadening 
participation--the Louis Stokes Alliances for Minority Participation, 
the Alliances for Graduate Education and the Professoriate, the Centers 
for Research Excellence in Science and Technology (CREST), Robert Noyce 
Scholarship program, STEM Talent Expansion Program and EPSCoR--just to 
name a few, are secured in this request. Each of these serve as models 
for integrating educational and research resources to improve 
recruitment and retention in science and engineering to all sectors of 
our diverse population.

    SUSTAINING ORGANIZATIONAL EXCELLENCE IN NSF MANAGEMENT PRACTICES

    NSF directly supports over 210,000 scientists, educators and 
students and processes over 40,000 proposals a year. Balancing the 
needs of a growing, increasingly complex portfolio with new 
requirements for e-business practices, security, accountability, and 
award oversight presents a challenge. NSF sets high standards for its 
business practices and strives to create an agile, innovative 
organization through state-of-the-art business conduct and continual 
review. In order to meet these management goals, NSF will be increasing 
funding for activities that advance organizational excellence by $46 
million, to a total of $336 million. In addition to critically needed 
upgrades to our information technology infrastructure, this increase 
will allow for the recruitment of 25 full-time employees--23 for NSF 
and one each for the National Science Board and the Office of the 
Inspector General--which will improve our ability to manage our 
increasingly complex portfolio.
    Expanding our e-government systems and the implementing of our 
ongoing business analysis recommendations are high priorities for 
fiscal year 2006.
    Over the past 2 years, as part of the administration's Program 
Assessment Rating Tool, NSF has worked with OMB to rate eight of our 
investment categories. All of these areas have received the highest 
rating of Effective. As such, NSF programs fall within the top 15 
percent of 600 government programs evaluated to date.

                        CROSSCUTTING ACTIVITIES

    Beyond our budget priorities lie dozens of programs and initiatives 
that cut across NSF directorates and enrich the overall science and 
research enterprise. NSF sets priorities based on a continual dialogue 
and exchange of ideas with the research community, NSF management and 
staff and the National Science Board. Programs are initiated based on 
several criteria: intellectual merit, broader impacts of the research, 
balance across disciplines and synergy with research in other agencies. 
The Committee of Visitors process ensures a continuous evaluation of 
our merit review process and feedback on how NSF programs are 
performing. In fiscal year 2006, NSF will emphasize four crosscutting 
areas.
    Crosscutting Areas of Emerging Opportunity.--Over several years, 
NSF has funded exceptionally promising interdisciplinary efforts aimed 
at advancing our knowledge, addressing national needs, and probing the 
grand challenges of science. The fiscal year 2006 request supports the 
following priority areas: $84 million for Biocomplexity in the 
Environment, $243 million for Nanoscale Science and Engineering, $89 
million for the Mathematical Sciences Priority Area and $39 million for 
Human and Social Dynamics.
    International Collaborations.--Science and engineering research are 
increasingly global endeavors. International partnerships are critical 
to the United States in maintaining a competitive edge, capitalizing on 
global opportunities, and addressing global problems. The Office of 
International Science and Engineering's recent move to the director's 
office, and the budget request reflects this important trend. The 
fiscal year 2006 budget provides $35 million for NSF's Office of 
International Science and Engineering.
    The recent Indian Ocean Tsunami disaster represents the finest in 
international cooperation--and clearly demonstrates an international 
desire to develop scientific methods for natural disaster prediction 
and ways to reduce losses when such catastrophic events do inevitably 
occur. A network of more than 128 sensors--which NSF has a 20-year 
investment in--recorded shock waves from the recent earthquake as they 
traveled around the earth. This network is the primary international 
source of data for earthquake location and tsunami warning and its data 
forged the critical core of the early knowledge of this event. Within 
days of the disaster NSF research teams deployed to the region to 
gather critical data before it was lost to nature and reconstruction. 
Their work will help scientists and engineers better understand the 
warning signs of natural disasters, the design of safer coastal 
structures, the development of early warning and response systems, and 
effective steps for disaster recovery.
    Interagency Initiatives.--NSF will continue to play a lead role in 
interagency collaborations to address national needs and take advantage 
of economic growth opportunities. In fiscal year 2006, NSF investments 
in the National Nanotechnology Initiative increase by $6 million over 
fiscal year 2005 levels to total $344 million. NSF participation in the 
Networking Information Technology Research and Development initiative 
will increase to $803 million--$8 million over the fiscal year 2005 
level. The NSF contribution to the Climate Change Science Program 
decreases slightly to $197 million.
    Homeland Security Activities.--The Fiscal Year 2006 Request 
includes a $2 million increase for government-wide efforts in homeland 
security research and development. This $344 million investment will 
strengthen NSF's commitment to cybersecurity by supporting innovations 
to secure today's computer and networking systems, embed cybersecurity 
into future systems and preparing tomorrow's workforce with state-of-
the-art security skills.

                               CONCLUSION

    Mr. Chairman, I've only touched upon the variety and richness of 
the NSF portfolio. NSF research and education efforts contribute 
greatly to the Nation's innovation economy and help keep America at the 
forefront of science and engineering. At the same time, NSF supported 
researchers produce leading edge discoveries that serve society and 
spark the public's curiosity and interest. Extraordinary discoveries 
coming from dozens of NSF programs and initiatives are enriching the 
entire science and engineering enterprise, and making education fun, 
exciting and achievement-oriented. In fact, just this month, two of the 
most widely-read and emailed stories from the national press were the 
discoveries of NSF-supported researchers.
    In one, scientists using new bio-bar-code technology created a 
detection method for a protein implicated in Alzheimer's disease. It's 
the first test designed for use in living patients and holds promise 
for diagnosing Alzheimer's at an early stage. In the second 
development, scientists generated an entirely new classification system 
for the brains of birds based on recent studies showing that birds are 
much closer in cognitive ability to mammals than previously thought. 
The new scheme will affect thousands of scientists, and help merge 
research efforts on both birds and mammals. These two examples, fresh 
off the press, illustrate NSF's motto ``Where Discoveries Begin.''
    Mr. Chairman and members of the committee, I hope that this brief 
overview conveys to you the extent of NSF's commitment to advancing 
science and technology in the national interest. I am very aware and 
appreciative of the committee's long-standing bipartisan support for 
NSF. I look forward to working with you in months ahead, and would be 
happy to respond to any questions that you have.
                                 ______
                                 
Prepared Statement of Dr. Christine Boesz, Inspector General, National 
                           Science Foundation

    Chairman Bond, Senator Mikulski, and distinguished members of the 
subcommittee, I am Dr. Christine Boesz, Inspector General at the 
National Science Foundation (NSF). I once again appreciate the 
opportunity to present to you information as you consider NSF's fiscal 
year 2006 budget request. NSF's work over the past 55 years has had an 
extraordinary impact on scientific and engineering knowledge, laying 
the groundwork for technological advances that have shaped our society 
and fostered the progress needed to secure the Nation's future. 
Throughout, NSF has maintained a high level of innovation and 
dedication to American leadership in the discovery and development of 
new technologies across the frontiers of science and engineering.
    As you know, however, the nature of the scientific enterprise has 
changed over the past few decades. Consequently, the challenges facing 
NSF have changed. My office has and will continue to work closely with 
NSF management to identify and address issues that are important to the 
success of the National Science Board and NSF. I have now been the 
Inspector General of NSF for 5 years and am pleased to have the 
opportunity to work with both Dr. Washington and Dr. Bement, sharing in 
their vision of a truly successful organization. For the past 4 years, 
I have testified before this subcommittee on the issues that pose the 
greatest challenges for NSF management. This year, I will provide an 
update, from my perspective as Inspector General, on the progress being 
made at NSF to address the most critical of these challenges.

                          AWARD ADMINISTRATION

    In a given year, NSF spends roughly 90 percent of its appropriated 
funds on awards for research and education activities. Awarding and 
managing these grants, cooperative agreements, and contracts is NSF's 
primary business activity. While NSF has a system for administering its 
peer review and award disbursement responsibilities, it still lacks a 
comprehensive, risk-based program for monitoring its grants and 
cooperative agreements once the money has been awarded.
    In response to a reportable condition identified in the Independent 
Auditors Report for the past 4 years, the agency developed an Award 
Monitoring and Business Assistance Program Guide that includes post-
award monitoring policies and procedures, a systematic risk assessment 
process for classifying high-risk grantees, and various grantee 
analysis techniques. NSF also developed an annual grantee-monitoring 
plan, conducted site visits on selected high-risk grantees, and 
provided grant-monitoring training for its reviewers. In addition, 
during the past year, NSF realigned staff and resources to better 
address this challenge and contracted with a consultant to 
independently assess its post-award monitoring program.
    While these efforts represent positive steps toward an effective 
award-monitoring program, concerns remain about the limitations of the 
risk model in identifying all high-risk awards and the adequacy of site 
visit procedures and the necessary resources provided to the post-award 
monitoring program. In addition, a recent audit by my office further 
highlights the need for increased post-award monitoring. My auditors 
found that a significant number of both annual and final project 
reports required by the terms and conditions of NSF's grants and 
cooperative agreements were either submitted late or not at all. This 
was due in part because of a lack of emphasis placed on the importance 
of these reports, and because NSF staff do not have the time to 
adequately address this facet of award administration. In addition, my 
auditors found that contrary to its policy, NSF has continued to fund 
some principal investigators who have not yet submitted their final 
project reports.
    But I am encouraged by the results of NSF's consultant's 
independent assessment of the post-award monitoring program, which 
contained concerns similar to ours. The consultant's report identifies 
many opportunities for improvement and recommendations for positive 
change. Implementing a plan to address these opportunities for 
improvement would address many of our concerns and would be a 
significant step for NSF towards successfully meeting this challenge.

              MANAGEMENT OF LARGE INFRASTRUCTURE PROJECTS

    Throughout my 5-year tenure as Inspector General of NSF, we have 
considered management of large facility and infrastructure projects to 
be one of NSF's top management challenges.\1\ While this is certainly a 
subset of award administration, I continue to feel strongly that large 
facility management warrants independent attention. As you know, NSF 
has been increasing its investment in large infrastructure projects 
such as accelerators, telescopes, research vessels and aircraft, 
supercomputers, digital libraries, and earthquake simulators. Many of 
these projects are large in scale, require complex instrumentation, and 
involve partnerships with other Federal agencies, international science 
organizations, and foreign governments. Some, such as the construction 
of the new South Pole Station, present additional challenges because 
they are located in harsh and remote environments.
---------------------------------------------------------------------------
    \1\ Memorandum from Christine C. Boesz, Inspector General, National 
Science Foundation, to Warren Washington, Chairman, National Science 
Board, and Arden Bement, Acting Director, National Science Foundation 
(Oct. 15, 2004); Memorandum from Christine C. Boesz, Inspector General, 
National Science Foundation, to Warren Washington, Chairman, National 
Science Board, and Rita R. Colwell, Director, National Science 
Foundation (Oct. 17, 2003); Memorandum from Christine C. Boesz, 
Inspector General, National Science Foundation, to Warren Washington, 
Chairman, National Science Board, and Rita R. Colwell, Director, 
National Science Foundation (Dec. 23, 2002); Memorandum from Christine 
C. Boesz, Inspector General, National Science Foundation, to Eamon M. 
Kelly, Chairman, National Science Board, and Rita R. Colwell, Director, 
National Science Foundation (Jan. 30, 2002); Letter from Christine C. 
Boesz, Inspector General, National Science Foundation, to Senator Fred 
Thompson, Chairman, Senate Committee on Governmental Affairs (Nov. 30, 
2000).
---------------------------------------------------------------------------
    As I have testified in the past, the management of these awards is 
inherently different from the bulk of awards that NSF makes. While 
oversight of the construction and operations of these large facility 
projects must always be sensitive to the scientific endeavor, it also 
requires a different set of management skills for the NSF staff 
involved. It requires expertise in the construction and oversight of 
large facilities; close attention to tracking costs and meeting 
deadlines; and effective coordination with scientists, engineers, 
project managers, and financial analysts. Although NSF does not 
directly operate these facilities, it is ultimately responsible and 
accountable for their success. Consequently, it is vital that NSF, 
through disciplined project management, exercise proper stewardship 
over the public funds invested in these large projects.
    In fiscal years 2001 and 2002, my office issued two audit reports 
on large facilities with findings and recommendations aimed at 
improving NSF's management of these projects.\2\ Primarily, our 
recommendations were aimed at (1) increasing NSF's level of oversight 
with particular attention to updating and developing policies and 
procedures to assist NSF managers in project administration, and (2) 
ensuring that accurate and complete information on the total costs of 
major research equipment and facilities is available to decision 
makers, including the National Science Board, which is responsible for 
not only approving the funding for these large projects, but also 
setting the relative priorities for their funding.
---------------------------------------------------------------------------
    \2\ Office of Inspector General, National Science Foundation, Audit 
of the Financial Management of the Gemini Project, Report No. 01-2001 
(Dec. 15, 2000); Office of Inspector General, National Science 
Foundation, Audit of Funding for Major Research Equipment and 
Facilities, Report No. 02-2007 (May 1, 2002).
---------------------------------------------------------------------------
    NSF continues to make gradual progress towards addressing the 
reports' recommendations. The most significant progress was the hiring 
of a new Deputy Director for Large Facility Projects. During the past 
year, NSF has made further progress by providing this Deputy Director 
with 1.5 FTE's, which allowed him to begin to develop the detailed 
guidance needed by program officers to adequately manage their large 
facility projects. Among numerous duties related to large facility 
project management, the Deputy Director chairs a facilities panel that 
has responsibility for approving management plans for projects, and he 
receives periodic reports on active projects.
    However, the Large Facility Projects Office continues to face a 
number of obstacles to successfully implementing a viable large 
facility management and oversight program. To enable this Office to 
develop a more influential role, NSF's senior management must clearly 
recognize and champion the Large Facility Projects Office's oversight 
responsibility, and provide it with the independent authority and 
resources to handle it. These resources need to include funding for 
staff, contract support, travel, and other necessary resources. Without 
this management framework, the role of NSF's Large Facility Projects 
Office is likely to remain one that is primarily advisory and 
collaborative, rather than one that has a formal charge to 
substantively and positively influence project management decisions.

                 STRATEGIC MANAGEMENT OF HUMAN CAPITAL

    While the previous two management challenges are of an ongoing and 
urgent nature, they may be symptomatic of a larger, more pressing need 
for improved strategic management of NSF's human capital. In order to 
fully address its award management challenges, NSF will need to devote 
more resources and attention to making business and process 
improvements, while at the same time, planning for its future workforce 
needs. Although advances in technology have enhanced the workforce's 
productivity, NSF's rapidly increasing workload has forced the agency 
to become increasingly dependent on temporary staff and contractors to 
handle the additional work. NSF's efforts in the past to justify an 
increase in staff have been impeded by the lack of a comprehensive 
workforce plan that identifies workforce gaps and outlines specific 
actions for addressing them. Without such a plan, NSF cannot determine 
whether it has the appropriate number of people or the types of 
competencies necessary to accomplish its strategic goals.
    NSF has recognized the seriousness of this challenge and, as I 
testified last year, has now identified investment in human capital and 
business processes, along with technologies and tools, as objectives 
underlying its new Organizational Excellence strategic goal.\3\ NSF 
also contracted in fiscal year 2002 for a comprehensive, $14.8 million, 
3- to 4-year business analysis, which includes a component for a Human 
Capital Management Plan. Preliminary assessments provided by the 
contractor confirmed that NSF's workforce planning to date has been 
limited and identify specific opportunities for NSF to improve in this 
area. NSF's Human Capital Management Plan, which was delivered in 
December 2003, links Human Capital activities to the NSF business plan 
and to the Human Capital Assessment and Accountability Framework 
provided by the Office of Personnel Management. While the current plan 
provides a roadmap for identifying NSF's future workforce needs, the 
needs themselves are still in the process of being defined. I continue 
to believe NSF cannot afford to wait long to address its workforce 
issues. If not adequately resolved, these issues will undermine NSF's 
efforts to confront its other pressing management challenges and to 
achieve its strategic goal of Organizational Excellence.
---------------------------------------------------------------------------
    \3\ National Science Foundation, Strategic Plan Fiscal Year 2003-
Fiscal Year 2008 (Sept. 30, 2003) <http://www.nsf.gov/od/gpra/
Strategic_Plan/fiscal year 2003-2008.pdf>.
---------------------------------------------------------------------------
    NSF's reliance on ``non-permanent'' personnel is another area of 
concern. Forty-seven percent of NSF's 700 science and engineering staff 
are either visiting personnel, temporary employees, or intermittent 
employees. Visiting personnel make an important contribution to NSF's 
mission by enabling the agency to refresh and supplement the knowledge 
base of its permanent professional staff. But managers who serve at NSF 
on a temporary basis frequently lack institutional knowledge and are 
less likely or able to make long-term planning a priority. Moreover, 
there are substantial administrative costs that NSF incurs in 
recruiting, hiring, processing, and training personnel that rotate 
every 1 to 4 years. In fiscal year 2004, my office conducted an audit 
that identified the additional salary, fringe benefits, travel and 
other costs of visiting or temporary personnel, and found three areas 
where NSF could improve its administration of the programs.\4\ In 
short, while visiting personnel are an important resource for NSF, the 
agency must continually balance the benefits of their services against 
the additional costs involved.
---------------------------------------------------------------------------
    \4\ Office of Inspector General, National Science Foundation, Audit 
of Costs Associated with Visiting Personnel, Report No. 04-2006 (July 
23, 2004). Opportunities for improvement cited in the report include 
consulting income documentation, IPA pay computations, and VSEE cost of 
living adjustments.
---------------------------------------------------------------------------
    In conclusion I would like to comment briefly on my office's fiscal 
year 2006 budget request of $11.5 million. Although this request 
represents a $1.47 million (14.7 percent) increase over the Fiscal Year 
2005 Current Plan, the increase is primarily to fund the annual audit 
of NSF's financial statements, which previously has been provided 
through NSF's appropriations. The contract for this audit will be re-
competed in 2005, and we anticipate that its cost in fiscal year 2006 
will increase dramatically, consuming 75 percent or more of our total 
requested increase.\5\ The bulk of the remaining increase will be 
applied towards the expected pay increase for civilian personnel.
---------------------------------------------------------------------------
    \5\ Our survey of the current audit market shows that audit costs 
in general are on the rise because of Sarbanes-Oxley and other 
government requirements. While the audit cost $800,700 in fiscal year 
2004 and is projected to be $855,800 in fiscal year 2005, the audit 
under a new contract is expected to exceed $1.0 million in fiscal year 
2006.
---------------------------------------------------------------------------
    My office will continue to focus its audit attention on NSF's most 
pressing management challenges, some of which I have described for you 
today. In addition, we will also maintain a focus on specific issues 
that emerge concerning the management of NSF programs, procurement and 
acquisition, information technology, human capital, awardee financial 
accountability and compliance, and OMB Circular A-133 audits. We have 
recently made a strong commitment to improving the quality of audits 
conducted by our contract CPA firms, and the increase in time and 
effort required to meet the higher standards is significantly raising 
the costs of contracted audits.\6\ In recent years, these audits have 
uncovered material issues concerning unallowable indirect costs, 
unfunded cost-sharing commitments, and records maintained by large 
school systems that were so inadequate they could not be audited. It is 
likely that the continuing increase in costs may result in a reduction 
in the number of contracted audits in fiscal year 2006. We will also 
have to more gradually phase in our assessments of NSF actions 
resulting from the agency's multiyear business analysis contract and 
workforce plan, which are scheduled for completion in fiscal year 2005. 
Finally, while we will be able to initiate an audit on international 
collaborations, which are an integral part of NSF's portfolio, with 
particular attention to the accountability and audit requirements of 
international partners, major efforts in this area may also have to be 
phased in.
---------------------------------------------------------------------------
    \6\ Most contract CPA audits currently range from $67,000 to 
$160,000.
---------------------------------------------------------------------------
    Mr. Chairman, this concludes my written statement. I would be happy 
to answer any additional questions you or other members of the 
subcommittee may have, or to elaborate on any of the issues that I have 
addressed today.

                         National Science Board

STATEMENT OF DR. WARREN M. WASHINGTON, CHAIRMAN
    Senator Bond. Dr. Washington.
    Dr. Washington. Mr. Chairman Bond, Senator Mikulski, and 
Senator Stevens, I appreciate the opportunity to testify before 
you. My testimony today is in my capacity as Chairman of the 
National Science Board.
    On behalf of the Board and the widespread community 
involved in various aspects of education, as well as research, 
I want to thank the Senate for the long-term commitment to the 
investments in science, engineering, mathematics, technology, 
and education.
    The Board greatly appreciates the Senate's very prompt 
action in confirming eight new members of the Board and the NSF 
Director.
    The Congress established the National Science Board in 1950 
and gave it dual responsibilities: First, oversight of 
activities and establishing policies for the National Science 
Foundation and second, serving as an independent national 
science body to render advice to the President and Congress on 
policy issues related to science and engineering research and 
education.
    During our recent Board Retreat, which was only a week or 
so ago, the Board re-affirmed their strong commitment to 
fulfilling our obligations. The Board members, including the 
NSF Director, discussed the important role of the Board in 
establishing a new vision and setting priorities for the 
Foundation.
    The Board has reviewed and approved the NSF fiscal year 
2006 budget request that was submitted to OMB in September 
2004, and we generally support the President's budget request.
    We are certain that members of this subcommittee fully 
understand the unique and long-term value of NSF programs to 
ensure the future economic health of our Nation, to maintain 
U.S. preeminence in discovery and innovation, and to provide 
valuable contributions to homeland security efforts.
    The Board fully supports the fiscal year 2006 budget focus 
on the four funding priorities that address current national 
challenges, as well as making NSF's core portfolio of research 
investment even stronger.
    Should additional funds beyond the administration's request 
be made available to NSF, the Board has these following 
recommendations: to more strongly support the investment in 
science and engineering education, to address the backlog of 
Board-approved major research equipment and facilities 
construction projects, and to address the additional financial 
burden to the Foundation related to the transfer of financial 
responsibility for icebreaker ships from the Coast Guard to the 
NSF.
    I would like to briefly highlight some of the Board's 
accomplishments last year. Regarding the large research 
facilities, we are in the process of developing and 
implementing the setting of priorities for the MREFC projects, 
and we have approved a draft of ``Setting Priorities for Large 
Research Facility Projects Supported by the National Science 
Foundation'' report. And we are now seeking input from the 
larger community about that report, and we expect full 
implementation of the revised process by the fall.
    The Board has examined the policies and the positions that 
came out of the NAPA report--those have to do with the Sunshine 
Act, the use of IPA's and other employees who rotate in and out 
of the Foundation, the appointment process of the NSF Inspector 
General, and the role of the Board in oversight and setting 
policies for NSF.
    During this year, the Board will begin a revision of our 
strategic plan with a focus on vision and long-term goals for 
NSF, while working with the NSF management to set clear, near-
term priorities for the Foundation that are linked to budget 
realities.
    At the request of Congress, we will also be carrying out an 
examination of the NSF Merit Review System and report our 
initial findings before the end of this fiscal year.

                           PREPARED STATEMENT

    The Board is going to be examining long-lived data 
collections, how to support transformative research more 
effectively, and how to ensure an adequate and diverse S&E work 
force for the future.
    We will also be examining our investments in NSF centers 
versus PI-type grants.
    I thank you very much, and I will be happy to answer any 
questions.
    Senator Bond. Thank you very much, Dr. Washington.
    [The statement follows:]

             Prepared Statement of Dr. Warren M. Washington

    Chairman Bond, Senator Mikulski, and members of the committee, I 
appreciate the opportunity to testify before you. I am Warren 
Washington, Senior Scientist and Section Head of the Climate Change 
Research Section at the National Center for Atmospheric Research. My 
testimony today is in my capacity as the Chairman of the National 
Science Board (the Board, NSB).
    On behalf of the Board and the widespread and diverse research and 
education communities that we all serve, I thank the Senate for its 
long-term commitment to a broad portfolio of investments in science, 
engineering, mathematics, and technology research and education.
    The Congress established the National Science Board in 1950 and 
gave it dual responsibilities:
  --oversee the activities of, and establish the policies for, the 
        National Science Foundation (the Foundation, NSF); and
  --serve as an independent national science policy body to render 
        advice to the President and the Congress on policy issues 
        related to science and engineering research and education.
    The Board greatly appreciates the Senate's very prompt action in 
confirming eight new NSB Members and the NSF Director before our 
December 2004 meeting. This Senate action allowed the Board to move 
forward with our new Members able to participate fully in addressing 
the Board's demanding responsibilities.
    I would like to provide some general comments regarding the NSF 
fiscal year 2006 budget request, then update you on National Science 
Board activities over the last year and some of our priorities for the 
coming year.

                  FISCAL YEAR 2006 NSF BUDGET REQUEST

    The National Science Board has reviewed and approved NSF's fiscal 
year 2006 budget request that was submitted to the Office of Management 
and Budget (OMB) in September 2004, and we generally support the 
President's budget request before you today. Given the overall cut to 
non-defense domestic discretionary spending, the Board respects and 
appreciates that the President's budget request recognizes the 
importance of returning NSF to positive growth. We are cognizant of the 
current Federal fiscal constraints that our Nation faces and that there 
are many worthy competing interests for a limited resource. However, we 
are also certain that the members of this Senate Appropriations 
Subcommittee fully understand the unique and long-term value of NSF 
programs in science and engineering research and education to ensuring 
the future economic health of our Nation, maintaining U.S. preeminence 
in discovery and innovation, and providing valuable contributions to 
homeland security efforts.
    The Board fully supports the fiscal year 2006 NSF budget focus on 
the four funding priorities that address current national challenges as 
well as strengthening the core portfolio's of NSF's research 
investment. We also recognize that a budget request of $5.605 billion, 
representing a 2.4 percent increase over NSF's fiscal year 2005 budget, 
is a significant investment in NSF programs in a time of national 
fiscal austerity. Nevertheless, it is incumbent on the Board to note 
that this request remains below the level of the 2004 NSF operating 
budget.
    Should this subcommittee determine that additional funds, beyond 
the administration's request, can be made available to NSF in fiscal 
year 2006, the National Science Board would recommend support for a 
strong and growing role for the NSF in the Nation's investment in 
science and engineering (S&E) education, addressing the backlog of 
Board approved and prioritized Major Research Equipment and Facilities 
Construction (MREFC) projects, and addressing the financial burden to 
the Foundation related to the transfer of financial responsibility for 
icebreaker ships from the Coast Guard to the NSF.
    Adequate preparation of future participants in the U.S. workforce, 
at all levels of education, will require increasing mathematics and 
science understanding and skills if the United States is to sustain 
global preeminence in S&T. The Board has underscored its concern about 
the poor performance of U.S. citizens in essential knowledge and skill 
areas in science, technology, engineering, and mathematics (STEM) 
fields, in comparison with other high technology countries. It is 
impossible to conclude that growth in our national capabilities can 
occur without continual enhancement of the skills of our workforce. We 
have relied too heavily on attracting international students and 
professionals to meet our workforce needs, and, as a result, we need to 
do a better job of preparing U.S. students for joining the S&E 
workforce. Other nations are competing with the United States for the 
best international students and most accomplished S&E professionals. We 
must recognize the critical challenge our Nation now faces in 
sustaining a U.S. science and technologies (S&T) workforce that will be 
competitive over the long term in an increasingly global and 
competitive S&T environment.
    The Board fully supports the proposed fiscal year 2006 funding for 
MREFC projects, and appreciates the significant increase in funding for 
this budget category. Members of the Senate Appropriations Subcommittee 
are aware of the exciting opportunities at the frontiers of knowledge 
that we are unable to pursue without the cutting edge facilities that 
are funded under this account. While funding for ongoing MREFC projects 
is the highest priority for the Board, the lack of implementing any new 
projects in fiscal year 2006 will increase the concern of the science 
community that the United States is losing its ability to sustain 
cutting edge S&E research. Should additional funding for MREFC projects 
be available, the Board recommends, in priority order, support for 
Ocean Observatories and the Alaska Regional Research Vessel.
    The third area for which the Board would recommend any additional 
NSF funding be allocated is appropriate support for the costs that NSF 
will incur with the transfer of financial responsibility for 
icebreaking activities previously supported by U.S. Coast Guard. The 
administration's fiscal year 2006 NSF budget request allocated $48 
million. The Board is very concerned that the true costs to NSF for 
these new responsibilities will be greatly more that $48 million and 
will, therefore, drain resources from NSF research and related 
activities. We understand that a new NSF-Coast Guard Joint Working 
Group is discussing various options for dealing with this issue. In 
addition, we also understand that the National Academies Polar Research 
Board is studying this issue and expects to provide an interim report 
in September 2005. When these two groups have completed their 
discussions and assessments, we urge Congress to factor their 
conclusions into any final budget decisions and provide adequate 
funding to fully support this new NSF responsibility.
    Again, the NSB supports the integrated portfolio of investments in 
S&E research and education represented in the NSF fiscal year 2006 
budget proposal. It thoughtfully blends support for the core 
disciplines with encouragement for interdisciplinary initiatives, 
brings together people from diverse and complementary backgrounds, 
provides infrastructure for research and STEM education, and 
strengthens the NSF's management of the enterprise.
    Further, in this time of National emergency, this budget for NSF 
continues to foster S&T that enhances our homeland security. NSF 
activities in this area include Critical Infrastructure Protection, 
Research to Combat Bioterrorism, Cybercorps/Scholarships for Service, 
Counterterrorism, and Physical/Information Technology Security. Of 
course, by enabling future discovery and innovation, NSF supports our 
Nation's long-term prosperity and economy security.

            OVERVIEW OF NSB ACTIVITIES DURING THE LAST YEAR

    During the last calendar year, even while going through a 
continuing evolution in terms of its operation, the Board has 
accomplished a great deal in terms of our mission to provide oversight 
and policy direction to the Foundation.
    I would like to briefly highlight some of these accomplishments, 
but will not attempt to discuss them all here.
    In terms of providing oversight for the Foundation, the Board has:
  --reviewed and endorsed the Office of Inspector General Semi-annual 
        Reports to Congress, and approved NSF management responses;
  --approved the NSF fiscal year 2006 budget request for transmittal to 
        OMB;
  --reviewed the Foundation's report on its merit review system;
  --provided review and decisions on nine major awards or proposal 
        funding requests;
  --developed and implemented a Board process for re-prioritization of 
        all Board approved, but not yet funded, MREFC projects; and
  --provisionally approved the report ``Setting Priorities for Large 
        Research Facility Projects Supported by the National Science 
        Foundation'' (NSB/CPP-04-20).
    The Board and Foundation are implementing the principles of the 
revised process described in this provisionally approved document for 
the fiscal year 2006 budget. At the same time, the Board Office has 
implemented an extensive outreach effort to invite comments from nearly 
400 individuals and organizations that would be expected to have 
particular interest in large facilities. We expect final revisions 
based on this additional review and input, Board approval of all 
revised procedures and policies, and full implementation of the revised 
process over the next few months.
    With respect to providing policy direction to the Foundation, the 
Board has:
  --approved a report on ``Broadening Participation in Science and 
        Engineering Faculty'' (NSB 04-41) that addresses the need to 
        increase the diversity of this component of the S&E workforce 
        to more nearly reflect the diversity of the student body it 
        serves, and
  --approved elimination of agency requirements for cost sharing, 
        beginning this year (2005), while retaining the 1 percent 
        statutory cost-sharing requirement.
    In terms of advice to the President and the Congress, the Board 
has:
  --published and distributed widely ``Science and Engineering 
        Indicators 2004'', the 16th volume of this statutory, biennial 
        series and initiated the ``Science and Engineering Indicator 
        2006'' report;
  --published a policy statement accompanying Indicators 2004, ``An 
        Emerging and Critical Problem of the Science and Engineering 
        Labor Force'' (NSB 04-07), which draws attention to the 
        disturbing long-term trends in U.S. education and the 
        globalization of S&T that, if ignored, may result in a loss of 
        U.S. leadership in innovation and high technology;
  --approved the draft report on ``Long Lived Data Collections: 
        Enabling Research and Education in the 21st Century'' (NSB/CPP-
        04-21);
  --reported to the Congress on Delegation of Authority in accordance 
        with Section 14 of the NSF Act of 2002;
  --responded to four specific IPA-related questions that NSB's 
        Executive Officer received from House Appropriations 
        Subcommittee for VA, HUD, and Independent Agencies;
  --published and disseminated ``Fulfilling the Promise: A Report to 
        Congress on the Budgetary and Programmatic Expansion of the 
        National Science Foundation'' (NSB-03-151);
  --provided testimony to congressional hearings;
  --interacted with Office of Science and Technology Policy (OSTP) and 
        OMB on NSF and S&E issues;
  --provided briefings and presentations to the Congress and other 
        policy organizations concerning the Board's reports and 
        statements; and
  --responded to specific questions and inquiries from Senators and 
        Representatives.
    In an effort to facilitate more openness of Board meetings in 
accord with the Sunshine Act, we expanded our practices for:
  --providing public notice of all our meetings in press releases, the 
        Federal Register, and the NSB Web site;
  --treating teleconferences of committees as open meetings;
  --providing much more information to the public in a more timely 
        manner regarding meeting discussions and decisions; and
  --encouraging public comment during the development of Board 
        publications.
    Also, this past year the Board:
  --examined our policies and positions relevant to the recommendations 
        of the National Academy of Public Administration report 
        concerning the Board's implementation of the Sunshine Act, the 
        use of Intergovernmental Personnel Act (IPA) employees and 
        other rotators at NSF, the oversight of the NSF Inspector 
        General, and the role of the National Science Board in 
        oversight and setting policies for NSF;
  --began implementing recommendations of the Office of Inspector 
        General to continue enhancing our procedures and policies 
        related to compliance with the Sunshine Act; and
  --significantly increased and improved our direct outreach and 
        communication with OMB, OSTP, Congress, other Federal agencies, 
        various interest groups and the outside S&E research and 
        education community.
    To that end, the Board Office is contracting to develop monitoring 
and evaluation tools, to expand outreach, and measure the impacts of 
NSB statements, resolutions and reports; and to redesign the NSB Web 
site for greater accessibility and utility to the public.
    One thematic area of significant accomplishment was transformative 
or ``high risk'' research where the Board organized a Workshop on 
``Identifying, Reviewing, and Funding Transformative Research'' and 
established within the Committee on Programs and Plans a Task Force on 
Transformative Research. Another thematic area of accomplishment this 
year was long-lived data collections where the NSB established within 
the Committee on Programs and Plans a Task Force on Long-Lived Data 
Collections; and prepared a draft report, ``Long-Lived Date 
Collections: Enabling Research and Education in the 21st Century'' 
(NSB/CPP-04-21).
    The year 2004 also saw the Board's examination of NSF issues 
related to broadening participation in S&E; as well as efforts toward 
obtaining industry perspectives on workforce issues. The Board has also 
continued its recognition of outstanding science, engineering and 
science education accomplishments through the Vannevar Bush Award, Alan 
T. Waterman Award, and Public Service Awards.

                      FISCAL YEAR 2006 NSB BUDGET

    The administration's Fiscal Year 2006 Budget Request of $4.0 
million for the NSB will be adequate to support Board operations and 
activities during fiscal year 2006. The request seeks resources to 
carry out the Board's statutory authority and to strengthen its 
oversight responsibilities for the Foundation. We expect that the 
Foundation will continue to provide accounting, logistical and other 
necessary resources in support of the NSB and its missions, including 
expert senior S&E staff serving as a cadre of executive secretaries to 
Board committees and task forces.
    At the urging of Congress, in fiscal year 2003 the Board began 
examining options for augmenting its professional staffing levels. At 
its May 2003 meeting, the Board decided to begin a process to assess 
the feasibility of recruiting for positions that would broaden its 
policy support, provide additional legal advice, and enhance the 
Board's capabilities in advanced information technology. The Board 
Office has continued to implement the staff enhancement plan, adding 
four positions this fiscal year for support staff, including 
information technology staff, science assistants, national awards 
assistant, and filling the vacancy for an editor/writer. The Board 
Office will be recruiting two senior professionals to provide policy 
and legal support to the Board this year. The Board is very pleased 
with the progress of the staff enhancement process.
    The NSB Office staff provides the independent resources and 
capabilities for coordinating and implementing S&E policy analyses and 
development. It also provides operational support essential for the 
Board to fulfill its mission. By statute, the Board is authorized five 
professional positions and other clerical staff as necessary. In 
consultation with the Congress, the Board has defined these 
professional positions as NSB senior S&E policy staff, and the clerical 
and technical positions as NSB staff that support Board operations and 
related activities. The full impact of increasing the number of 
professional positions closer to the statutory level is expected to 
occur in fiscal year 2005, emphasizing a broadening of professional 
skills to support the Board.
    In addition to the NSB Office's essential and independent resources 
and capabilities, external advisory and other services are especially 
critical to support production of NSB reports, and supplement the NSB 
staff's general research and administration services to the Board. 
These external services provide the Board and its Office with the 
flexibility to respond independently, accurately and quickly to 
requests from Congress and the President, and to address issues raised 
by the Board itself.
    In fiscal year 2006, the Board will expand its ongoing examinations 
of its role and responsibilities regarding the NSF's MREFC programs as 
it finalizes the development and implementation of a new protocol for 
the process by which major research equipment and facilities proposals 
are developed, prioritized, and funded; NSF policies for Long-lived 
Data Collections; NSF policies regarding the identification, 
development and funding of transformative ``high risk'' research; and 
policies to ensure an adequate and diverse S&E workforce for the 
future.
    The Board will continue to review and approve NSF's actions for 
creating major NSF programs and funding large projects. Special 
attention will be paid to impacts of budget constraints on the S&T 
workforce, broadening participation in higher education, national S&T 
infrastructure, and the size and duration of NSF grants.
    Effective communications and interactions with our constituencies 
contribute to the Board's work of identifying priority S&T policy 
issues, and developing policy advice and recommendations to the 
President and Congress. To this end, the Board will increase 
communication and outreach with the university, industry and the 
broader S&E research and education community, Congress, Federal S&T 
agencies, and the public. These activities will support U.S. global 
leadership in discovery and innovation based on a continually expanding 
and evolving S&T enterprise in this country, and will insure a 
principal role for NSF programs in providing a critical foundation for 
S&E research and education.
    With our new Board Members, new openness, and new modes of 
operations, the Board has much to do in 2005. However the most daunting 
challenge we face is making the tough choices and prioritizing NSF 
programs and projects in the face of constrained Federal budgets and a 
growing competition for those funds.

                            CLOSING REMARKS

    This is a difficult time for Federal budgets for S&E research and 
education and the institutions and individuals in the nonprofit and 
public sectors that rely on Federal support. For over 50 years the 
Federal Government has sustained a continual, visionary investment in 
the U.S. research and education enterprise in the expectation that such 
investment would redound to the benefit of all Americans. That Federal 
effort has expanded the horizon of scientific discovery and engineering 
achievements far and wide, leading to the realization of enormous 
benefits to our Nation and, indeed, all of humanity.
    In recognition of the Federal fiscal realities our Nation faces, 
the National Science Board pledges that we will be a force for causing 
the NSF to set priorities, to make hard programmatic budget decisions 
and, as a result, to obtain the most benefits from the funds provided. 
However, even in a time of budget constraints, as a Nation we cannot 
ignore our growing dependence as a society on innovation for economic 
prosperity and the ever-improving quality of life Americans have come 
to expect. The Federal compact in research and education with the 
nonprofit sectors is an essential pillar of our Nation's global 
dominance in S&T.
    We know what works--we have a very long history of success to draw 
on. We know the expanding frontiers of knowledge offer enormous 
opportunities for research and innovation. We also know that the 
education of all our citizens in the fundamentals of math, science and 
engineering must be addressed if the United States is to remain eminent 
in S&T when we enter the 22nd century. As other nations ramp up their 
investment in the infrastructure for S&E research and innovation, we 
cannot be complacent. The Federal investment in the Nation's S&T is a 
necessity for the Nation's future prosperity and security. The United 
States must sustain its advantages through continued wise, adequate 
Federal support for our S&E enterprise.

    Senator Bond. I am now going to turn to Senator Mikulski 
for her opening statement and questions. Then we will turn to 
Senator Stevens, our President pro tem, for his comments and 
questions. Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much. Good morning to 
everybody.
    Senator Bond and Senator Stevens, we know that we have a 
full appropriations hearing with Secretary Rice. So I am going 
to ask unanimous consent that my opening statement go into the 
record.
    Senator Bond. Without objection.
    Senator Mikulski. I want to make two points about it before 
I go into questions.
    First of all, to our panel here today and all in the 
scientific community, I think we noted the passing of Dr. 
Bromley, who was a Science Advisor to President Bush's father, 
that this subcommittee worked so closely with. He was a great 
person to work with and I would just like to acknowledge his 
passing and hope we would all hold him in our heart and just to 
also acknowledge when we can work together on a bipartisan 
basis and nonpartisan--see, I think science should be 
nonpartisan. You know, science belongs to America, not to a 
particular party. So we just want to note that.
    Coming back, though, as we look at the budget, I must say I 
am deeply disturbed about it. Senator Bond has said that 2 
percent is really 1 percent. Let us say it is 2 percent for the 
sake of conversation. That would mean our mutual goal of 
doubling the National Science Foundation budget, which is in 
law, signed by President Bush, would take, at this current 
funding, 36 years. Thirty-six years. That would take us to 
2040.
    Now, I think that America cannot wait. If we are going to 
have an innovation economy, which you support, we need to be 
able to have this, I believe, on a more robust path, focusing 
on certainly the four goals that you have outlined. They are 
exactly, I think, the national goals.
    Really, it is two broad-based functions. No. 1, research. 
Unlike NIH and some of the others and our great Federal labs, 
academia will tell us, as you know, that it is the National 
Science Foundation that funds the basic research that leads to 
the basic breakthroughs that lead to the new ideas that lead to 
the new technologies. So, that has to be our mission.
    And then the other is education. Where is the next 
generation of scientists and technology? We do not have a work 
force shortage. We do not have a talent shortage. We have to 
make sure we do not have an opportunity shortage when we look 
at a variety of levels of education. I know Senator Bond will 
be talking very much about the education budget.

                           PREPARED STATEMENT

    Before I go to my questions, I just wanted to make those 
points. Should we yield to Senator Stevens and then go to your 
questions and come back?
    [The statement follows:]

           Prepared Statement of Senator Barbara A. Mikulski

    Welcome Dr. Marburger, Dr. Bement and Dr. Washington. I want to 
thank Senator Bond for holding this hearing. I am glad we are moving 
forward with our work.
    The proposed budget for NSF is just 2.4 percent above last year for 
a total of $5,605,000,000. This barely keeps pace with inflation. Most 
disturbing is the cut to education programs. This budget actually cuts 
education programs by 12 percent and research is increased by almost 3 
percent which barely keeps pace with inflation. Yet, salaries and 
expenses go up by 20.5 percent, and major equipment goes up by 44 
percent. I do not doubt the value, need, or resources devoted to major 
equipment but when every other part of the NSF budget is starved for 
resources, a huge increase like that stands out.
    Senator Bond and I are committed to doubling the NSF budget over 5 
years. We have increased NSF's budget by an average of 10 percent over 
the President's budget for the last several years. This administration 
has broken its promise to NSF. In 2002, the President signed the NSF 
Authorization into law. It authorized a doubling of the NSF budget 
between 2002 and 2007. In 2006, NSF is authorized to be funded at 
$8,500,000,000. Yet the President's 2006 budget funds NSF at 
$5,605,000,000--34 percent below where it should be.
    Not only does this budget fail to double the NSF budget in 5 years, 
it actually cuts education programs by 12 percent. How can we raise 
test scores if we are cutting the very programs that are designed to 
raise test scores? A recent international study found that U.S. fourth 
grade students in mathematics came in 12th place--just behind Hungary. 
We are falling behind in innovation, job creation and education and 
this budget does nothing to address any of these issues.
    Teacher training programs are cut by 35 percent. K-12 education 
programs are cut by 23 percent. How can we train the next generation of 
teachers, and how can we prepare the 21st century workforce, when we 
are cutting the very programs that address this problem?
    Every major report on long term U.S. economic competitiveness has 
cited the need for a large increase in research--basic research into 
the physical sciences (physics, chemistry), and strategic research 
(nano, bio and info tech). It used to be we won the Nobel Prizes and 
other countries won market share. That was bad enough. Now, we are even 
falling behind in our Nobel Prizes. After peaking in the 1990's, the 
American share of Nobel Prizes is now falling for the first time in 
over 40 years. America's share of patents is also falling while patents 
granted to researchers in other countries is increasing. India, China, 
Japan, Korea--these are the countries we are competing against. 
Innovation is the key to economic growth and the Federal Government 
must take the lead but this budget fails to make the investment we need 
to innovate.
    Community Colleges should be at the forefront of training a high 
tech workforce. Yet, this budget cuts funding for community colleges. 
We should be increasing funding for community colleges, not decreasing 
it.
    The Tech Talent program which was started by this subcommittee and 
was designed to produce more math, science and engineering students, 
was cut. Again, we see a pattern of cutting education programs that 
address our most fundamental competitiveness and workforce development 
needs.
    If we are going to increase minority participation in the sciences, 
then we have to start with our Historically Black Colleges and 
Universities. In my own State of Maryland, I am proud to represent 
Morgan State, Bowie State and the University of Maryland, Eastern 
Shore.
    Fortunately, graduate stipends, which I lead the fight to raise, 
remain at the $30,000 level.
    I am also pleased to see a proposal for an expanded Tsunami warning 
system. We know that NOAA and the U.S. Geological Survey are the lead 
agencies but we look forward to hearing about NSF's role and other 
agencies that are participating in this program.
    Finally, I believe it is time to renew our commitment to oceans 
research. The U.S. Commission on Ocean Policy, chaired by Admiral 
Watkins, has given us an outstanding set of recommendations to pursue.
    Unfortunately, with a flat budget, cuts to education, workforce 
development and no real increase in research, the promise of innovation 
will be delayed. Other countries will continue to accelerate their 
commitment to research and development. The jobs of tomorrow depend 
upon the research of today. Unless we increase our commitment to 
workforce training, education and research, we will fall behind the 
rest of the world.

    Senator Bond. That is a very generous idea. Senator 
Stevens.
    Senator Stevens. Thank you very much.
    Senator Mikulski. But that is the direction I am going to 
be going in.

                     BARROW ARCTIC RESEARCH CENTER

    Senator Stevens. I do want to move on to the other 
committee and get prepared for that too.
    I only have one question. I am particularly talking to Dr. 
Bement. Alaska is the one place in the United States that 
really has shown the early effects of global climate change. We 
have plants growing further north. We have timber growing 
further north. The permafrost is thinner. We have the offshore 
ice that is thinner, if not gone. We have changes in some of 
the ocean mammals. We have considerable inundation of coastal 
villages, if not destruction of many.
    In 2004, I asked Congress to provide $5.8 million to NSF to 
reconstruct the Barrow Arctic Research Center. You have not 
spent a dime of it. Why?
    Dr. Bement. Well, I had the impression that was in NOAA's 
budget. We have been working with Admiral Lautenbacher----
    Senator Stevens. That was Science Foundation money that I 
earmarked as chairman of the committee, $5.8 million. Not one 
word from you since then.
    I do not want to embarrass you. I would ask you to give us 
a report because I think that is really a terrible situation 
when this area is the worst hit in the United States, and we 
cannot restore that center. The industry wants it. The State 
wants it. The science community wants it. It is the central 
location to try and study what is going on up there. You used 
to have a center there and the Navy was part of it then. I 
think you took it over after the Navy and then closed it down.
    Dr. Bement. Well, Senator, let me report to you that we are 
working on the Barrow Center. We have invested in the Barrow 
Center. We have a plan. We have implemented every element of 
the plan to date. I have met with NOAA executives, Admiral 
Lautenbacher. We are trying to develop a joint plan to fully 
fit out that center. That plan is currently in progress and we 
will have a report to you as quickly as we can put it together.
    Senator Stevens. Good. I thank you very much.
    Thank you very much, Senators.
    Senator Bond. Thank you, Senator Stevens.

                NATIONAL SCIENCE BOARD LONG-TERM VISION

    Let me ask two quick questions and I am going to turn it 
back to Senator Mikulski for her questions. First, Dr. 
Washington, as I stated in my opening remarks, I think the 
Science Board has to develop a long-term vision, and I think 
the Board is perfectly suited to do that. I agree with Dr. 
Marburger's statement that tight budgets have the virtue of 
focusing on priorities. So does a hanging in a fortnight.
    But I hope we are not in that bad a condition, but 
developing a clear strategy is critical so that we are focused 
on limited funds.
    May I have your commitment that you will have the Board 
immediately begin working on this matter? And how soon can the 
Board tackle it and when can you get it done?
    Dr. Washington. At the retreat that we had just a couple 
weeks ago, we did extensively talk about updating and coming up 
with a new strategic plan. You have my assurance that I will 
make this a high priority for next year.
    Senator Bond. How about a date? When will we have it?
    Dr. Washington. Hopefully we can have it by December. Now, 
you know I have 24 members and----
    Senator Bond. Well, tell the 24 members that Senator 
Mikulski and I----
    Senator Mikulski. And 48 opinions.
    Senator Bond. You are scientists, not economists. We do not 
have one on the one hand and on the other hand.
    Dr. Washington. Yes.
    Senator Bond. December, okay.

              MANAGEMENT AND OVERSIGHT OF LARGE FACILITIES

    Next, Dr. Bement and then Dr. Washington. The IG's 
statement for the record on the slow progress in addressing 
management and oversight of large research facility projects 
was disappointing. I think we understand you have a very good 
Deputy Director in Mark Coles. But I get the sense that he is 
not being utilized adequately as recommended.
    And I have three problems we would like you to fix 
immediately: No. 1, changing the roles and responsibilities of 
the LFP office so that they are authoritative and independent 
as originally intended, rather than advisory and collaborative.
    No. 2, the LFP needs resources. I understand you have begun 
addressing this and I applaud you but the current 1.5 FTE's are 
not going to cut the mustard given the complexity of the 
projects. I would suggest that even more resources be made 
available, maybe 5.
    No. 3, we ask that you ensure your systems can act quickly, 
track the cost of these projects so there is accountability. 
That is one thing that drives us nuts.
    So I would like your commitment today that you will take 
action on these recommendations and I would ask Dr. Washington 
as part of the Board's oversight role to hold the Science 
Foundation accountable for implementing it. Dr. Bement.
    Dr. Bement. Senator, we take guidance from the Inspector 
General quite seriously. On the other hand, there were some 
things I believe the Inspector General did not take into 
account.
    First of all, I hold myself accountable for our large 
facilities management and I take that responsibility very 
seriously. I rely on Mark Coles to be my early warning system 
to advise me on things going right and things going wrong. He 
has my complete confidence and has full responsibility for 
oversight.
    But the Inspector General did not take into account that he 
has access to 127 people in the budget and finance office to do 
full cost accounting, which is currently being implemented.
    Now, in addition to that, we have under contract--so he has 
access to contract personnel--to automate that full cost 
accounting system and make it an e-system and that will be 
implemented yet this year.
    On top of that, we do have plans to augment his capability 
by additional staff, not only full-time equivalent Federal 
personnel, but also additional contract personnel.
    Now, his role is business oversight. In addition to that, 
we have scientific oversight by all of our program officers 
assigned to each of these projects, and he has the 
responsibility to coordinate their activities and provide 
oversight as well.
    So in my evaluation, in all due respect to the Inspector 
General, I think that we have made great progress. We have more 
progress yet to make, but it is not a process that is broken.
    Senator Bond. I commended you on the steps that you have 
taken, but having access to 127 people is not the same as 
having the few that work for him, and we would like to see that 
business aspect totally handled. We want to see the science 
coordinated. We want to make sure these projects and these 
large facilities do function properly.
    Dr. Washington, a comment on that?
    Dr. Washington. Well, I concur with what Arden said.
    Now, the thing is the Board has been trying to step up to 
the oversight responsibilities with respect to the facilities 
issues, and I think that the report that is going to come out 
this fall, hopefully, will have all of the steps, both 
internally to NSF, and as the Board steps in how we approve, as 
well as monitor, these projects as they go through their life 
cycle.
    Senator Bond. We look forward to continuing that discussion 
and having some response from the IG as well.
    Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman. I think our 
colleagues should know that because of the Condoleezza Rice 
hearing, this will be compressed.
    My question goes to the impact of the R&D funding here. 
When we look at the $5 billion in the NSF budget for basic 
research, we are concerned that when we look at it, the 
industry share has fallen down. They are under so much pressure 
to meet bottom lines so the private sector that used to do 
breakthroughs, the demise of flagship institutions or the 
shrinkage like a Bell Lab with so many breakthroughs, so many 
patents, so many things that then were important to our society 
and led the way.
    Now, what we are concerned about is either the flat or the 
declining Federal investment in R&D while other nations like 
China and India, the new turbo powers in the global economy, 
are increasing their investment. Can you share with us what you 
think the consequences are going to be to our country? And if 
we stay at this point, while we are looking, as Senator Bond 
has pressed for, a strategic plan--but it is a strategic plan 
for not only NSF but for our country. Could you give us your 
thoughts on that?
    We know that your testimony has been vetted and all of 
those other kinds of things, but it would seem to me that if we 
had our druthers, we would have the NSF budget at at least 7.5 
to 8 this year.
    Dr. Marburger. With your permission, Senator, I would like 
to take a crack at that too.
    It is true that China, India, and other countries are 
increasing their investment. They are trying to look like the 
United States and they are trying to build a base of research 
and technically trained people to improve their economies, and 
we look forward to having new colleagues to help the entire 
world economy.
    But the United States maintains an extraordinary lead over 
these countries. We have huge investments. We are spending 
three times in Federal support of research and development that 
Japan, the next largest investor in these areas, does. During 
the past 5 years, there has been an enormous increase in the 
R&D capacity of the United States. This budget is tight, but it 
also maintains that strength and it does move ahead in selected 
areas such as nanotechnology and information technology and in 
other areas that are important to our leadership role.
    So, yes, we do have to be careful and make sure that we 
establish priorities that maintain our leadership. I believe 
that we are far in the lead now and will continue to be so for 
the foreseeable future. But this is a time when we have to make 
priorities and hard decisions, and this budget reflects that.
    Senator Mikulski. Dr. Washington, I know you are an old 
hand at these types of questions and have devoted a lot of 
thought. As we look at the allocation, presuming Senator Bond 
and I will have the National Science Foundation account--you 
know, we have been bonded for a long time.
    And we do not want to have a barb in the appropriations 
process.

                       FUNDING FOR BASIC RESEARCH

    Senator Bond. Not bad for 10 o'clock.
    Senator Mikulski. Not bad.
    How would you allocate this? Would you then say we should 
stay the course in funding basic research? You know my own 
orientation to the multidisciplinary approaches on 
breakthroughs like nano. How would you do this? But I am 
concerned that if you stay flat-funded, you are really in 
decline.
    Dr. Washington. Yes. In fact, if I can just add to that. We 
are seeing an enormous increase in proposals being sent to the 
Foundation, and with limited resources, we are going to be 
seeing the acceptance rate probably dropping, and that means 
lost opportunities.
    Senator Mikulski. Can you give us a quantifiable statement 
on that? How many do you get and how many can you fund that you 
would consider meritorious?
    Dr. Washington. Yes. I think it was last year that there 
was roughly $1 billion of excellent proposals that were not 
able to be funded, and I expect it will be a larger number in 
this coming year. I think that we are up to roughly 43,000 
proposals being sent to the Foundation, and with limited 
resources we just are not going to be able to fund all of 
those.
    If I could just add one more thing to your earlier comment. 
I went to the White House at the signing of the authorization 
bill, and I had great hopes that the NSF budget would be 
increasing enormously, maybe by a factor of 2 over maybe 7 or 8 
years. That hope is not there now. In other words, I think it 
is going to be a lost opportunity for our Nation to not have a 
greatly increased budget for NSF.
    Senator Mikulski. Dr. Bement, did you want to say anything?
    Dr. Bement. Well, I think my response would be that more 
and more economists are determining that what is driving our 
economy right now is not just savings, but investment in 
research and development and education. That equation has been 
picked up by almost every nation in the world, and so we are 
locked in competition for future economic growth and also in 
job creation. That is especially important to the United States 
because we want to capture the high end of new discovery and 
innovation. Even today, there has been a great ramping up of 
the number of patents that are citing recent discoveries 
through basic research.
    So it is an area where we have to pay attention. We have to 
take a longer view. And I am somewhat concerned that if you 
look at the mix of what is being funded in the private sector 
and the public sector, that too much of it is short-term. It is 
not just short-term in the private sector, but more of it in 
the public sector is becoming short-term.

                    K-12 MATH AND SCIENCE EDUCATION

    Senator Mikulski. Well, I am concerned not only about the 
R&D issues but about education.
    There are going to be wonderful Marylanders associated with 
Hopkins that are going to receive White House medals on March 
14, Dr. Giacconi, the founding father of the Space Telescope 
Institute and the Hubble initiative, and Dr. Saul Snyder, the 
head of neuroscience at Hopkins. They are both in their 
seventies, and they both have been professional advisors to me, 
as well as personal friends. If they were sitting here, in our 
many conversations in their homes and in the cafes of 
Baltimore, they would say we need not only money for research, 
but we are in our seventies. We need to be able to fund those 
people in their twenties, those young, upstart people that are 
bursting to go, and then also these children, all this talent 
that is out there bursting at the seams with people who want to 
get into the honors programs in middle school, as well as in 
high school.
    Now, I am concerned about this 12 percent cut in education. 
Would you tell us then how do you think you are going to 
address it and the consequences of this 12 percent? Because 
there are the Giacconis. There are the Snyders. One is someone 
who emigrated to this country. Again, I do not think we have a 
talent shortage. I never want us to have an opportunity 
shortage.
    Senator Bond. Senator Mikulski, if I may add on that. That 
was going to be my next question. The math and science 
partnership program continues to fund only the ongoing grants 
NSF has already awarded. The program is supposed to be placed 
in the Department of Education. We never thought it would. It 
has not gotten proposed funding. Furthermore, the current 
budget proposes to reduce the number of K through 12 teachers 
involved with math and science education by 17,000, with 
teacher and material development both being cut by over 30 
percent.
    I think we are going in the wrong direction. Dr. Marburger, 
does the administration not think we have a problem with K 
through 12 math and science education? Is it not important? 
What is the rationale behind cutting the resources that the NSF 
needs to make sure that we have math and science education at 
the K through 12 level effectively addressed? I will send a 
strong letter to follow.
    Dr. Marburger. Senator, the administration agrees that it 
is very important to have strength in teaching math and science 
in the lower grades. It is not obvious that putting all the 
money into some of these programs is the only way to go. We 
support strengthening education through a variety of means, 
through programs not only in NSF or not only in the Department 
of Education, but in investments in educational programs, 
educationally oriented programs in NASA, in the Department of 
Energy, and other areas. Even the research grants that NSF 
gives to the universities turn out to have an impact at 
education at all levels.
    We believe that a sort of across-the-board consciousness 
raising about the importance of K through 12 education is 
having an impact on those areas and the budget recommendations 
in this proposal address a sort of across-the-board philosophy 
that tries to put the money in the agencies that are 
appropriate to this task.
    Dr. Bement. Senator Mikulski, last year when I appeared 
before you, I was relatively new in the Foundation.

                        BROADENING PARTICPATION

    Senator Mikulski. Yes. You came to us from NIST, another 
special agency.
    Dr. Bement. And you asked me about ATE and ISE and I was 
not very sharp on that, but I learned very quickly. I felt that 
we did, as you pointed out, need to give higher priority to 
broadening participation. We just have to address our total 
population to bring people in the STEM work force.
    So taking all those special programs that address 
broadening participation, and if we take Math and Science 
Partnership aside, I took the enacted budget and actually added 
$10 million to those special programs. That adds up to about 
$400 million all together.
    But that is not the end of the story because we have now 
engaged the directorates. We are taking a much more integrated 
approach because the science directorates also have a 
responsibility for education. If you take in their 
contributions to broadening participation, actually the total 
investment in the Foundation amounts to about $597 million.
    Now, with regard to K to 12 education, even though the 
results may appear to be disappointing from the budgetary point 
of view, there is a success story there because the school 
districts that we have funded have discovered what works. And 
we have been working with the Department of Education to take 
the lessons learned, the best practices of ``what works'' and 
work with them in making ``what works'' work throughout all the 
other school districts in the country. That is being done 
through an interdepartment tiger team. We are going to continue 
to work very closely with them. I have requested a meeting with 
Secretary Spellings, and we will have a lot to talk about on 
that score.

                             K-12 EDUCATION

    Senator Mikulski. I just want to be clear about this. The 
math and science initiatives in curriculum, teacher 
development, and so on were to be research-driven. And when we 
work on No Child Left Behind, we want research-based solutions, 
not just whatever gimmicks that are being sold, et cetera.
    Now, are you saying that now the results are coming in and 
now you see this then disseminating to the 50 States, to the 
180-some school districts----
    Dr. Bement. No, Senator.
    Senator Mikulski [continuing]. In terms of research 
knowledge, symposiums, this type of thing?
    Dr. Bement. The administration fully supports our research 
activities in this area, and we intend to continue our mission 
in doing research in this area.
    Senator Mikulski. You said you have got lessons learned, 
best practices. You want to meet with her.
    Dr. Bement. Yes.
    Senator Mikulski. What is the point of the meeting?
    Dr. Bement. The point of that is that in our pilot programs 
with the various districts that we support, we are learning 
through our research what can be effective in improving science 
and mathematics education. We will never have the resources or 
personnel to propagate that throughout the entire Nation. We 
have to rely on the Department of Education to carry out the 
propagation role.
    Senator Mikulski. Well, that is the point, to take the 
lessons learned, the best practices, go to I think a very 
dynamic Secretary of Education and experienced and seasoned in 
the field to then propagate that.
    Dr. Bement. We have that partnership.
    Senator Mikulski. Well, actually I will look forward to 
hearing about that because we do not want research mortuaries 
where we just collect the data and it just gets banked 
somewhere, you know, the way they freeze things for the future.
    There are so many interesting things to be covered.

                              PLANT GENOME

    Senator Bond. Senator Mikulski, we have all noted the 
research mortuaries.
    We have run out of time.
    Dr. Mary Clutter is here. Dr. Clutter, will you stand up 
please? Thank you very much. I was going to ask you to give a 
report. Unfortunately, we have run out of time, but I want 
everybody here to know how important the work is that is going 
on in the plant genome area. We have 800 million children 
worldwide that are hungry or malnourished. We know that 
nutrition and food production are critical to the health and 
economic opportunity for all countries, and there are a lot of 
new industrial energy and pharmaceutical applications to new 
food technologies that can serve to ensure our Nation's 
producers and the world's population and we can benefit from 
this with aggressive work. I would ask for the record you 
update us on the genome project and your efforts to create 
collaborative partnerships between U.S. and developing country 
research institutions.
    I would note for you, without asking for any endorsement 
from the NSF, the fact that Senator Mikulski and I have 
introduced a measure recommended by Dr. Danforth's blue ribbon 
committee to establish a food and agricultural research arm to 
do the basic research. We want to bring with that additional 
funding because we know how strapped your Foundation funding 
is. But the best minds in the scientific community have steered 
us in this direction to say that we need basic research to 
utilize the tremendous potential in this area. Senator Mikulski 
and I and a number of others will be reintroducing that. We 
would welcome your comments and suggestions on it and would 
look forward to having a report that we will try to publicize. 
I hope everybody who is here will read it. Certainly Senator 
Mikulski and I will.
    Senator Mikulski, any closing thoughts?
    Senator Mikulski. No. I think we just want to thank you for 
what you do. As you can see, we certainly have the will to be 
supportive and we need to find a national wallet. So thank you.
    Senator Bond. Thanks so much to our witnesses, to all those 
who attended. We apologize. Due to other commitments, we have 
to bring this hearing to a close, but we certainly hope to have 
the opportunity to continue to work with you. Stay tuned and we 
will find out whether we do.

                          SUBCOMMITTEE RECESS

    The hearing is recessed.
    [Whereupon, at 10:03 a.m., Thursday, February 17, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
